<html>
<title> - EFFORTS TO ADDRESS URBAN STORMWATER RUNOFF</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               EFFORTS TO ADDRESS URBAN STORMWATER RUNOFF

=======================================================================

                                (111-15)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                  U.S. GOVERNMENT PRINTING OFFICE
48-237                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
ELLEN O. TAUSCHER, California        VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          GARY G. MILLER, California
RUSS CARNAHAN, Missouri              HENRY E. BROWN, Jr., South 
STEVE KAGEN, Wisconsin               Carolina
DONNA F. EDWARDS, Maryland           TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Barrett, Hon. Tom, Mayor of Milwaukee, Wisconsin.................     4
Funkhouser, Hon. Mark, Mayor of Kansas City, Missouri............     4
Leppert, Hon. Tom, Mayor of Dallas, Texas........................     4
Neukrug, Howard, P.E., Director, Office of Watersheds, 
  Philadelphia Water Department, Philadelphia, Pennsylvania......    28
Richards, Timothy, P.E., NAFSMA Director and Stormwater Committee 
  Chair, Deputy City Engineer, City of Charlotte, North Carolina.    28
Shapiro, Mike, Acting Assistant Administrator, Office of Water, 
  United States Environmental Protection Agency, Washington, D.C.    28
Stoner, Nancy, Co-Director, Clean Water Program, Natural 
  Resources Defense Council, Washington, DC......................    28
Traver, Robert, Professor, Civil and Environmental Engineering, 
  Villanova University, Villanova, Pennsylvania..................    28
Wahl, Mary, Director, Office of Watersheds, Portland Bureau of 
  Environmental Services, Portland, Oregon.......................    28

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    47
Cleaver, II, Hon. Emanuel, of Missouri...........................    48
Costello, Hon. Jerry F., of Illinois.............................    49
Mitchell, Hon. Harry E., of Arizona..............................    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Barrett, Hon. Tom................................................    52
Funkhouser, Hon. Mark............................................    55
Leppert, Hon. Tom................................................   103
Neukrug, Howard, P.E.............................................   117
Richards, Timothy, P.E...........................................   130
Shapiro, Mike....................................................   141
Stoner, Nancy....................................................   151
Traver, Robert...................................................   167
Wahl, Mary.......................................................   178

[GRAPHIC] [TIFF OMITTED] T8237.001

[GRAPHIC] [TIFF OMITTED] T8237.002

[GRAPHIC] [TIFF OMITTED] T8237.003

[GRAPHIC] [TIFF OMITTED] T8237.004

[GRAPHIC] [TIFF OMITTED] T8237.005

[GRAPHIC] [TIFF OMITTED] T8237.006

[GRAPHIC] [TIFF OMITTED] T8237.007

[GRAPHIC] [TIFF OMITTED] T8237.008

[GRAPHIC] [TIFF OMITTED] T8237.009



         HEARING ON EFFORTS TO ADDRESS URBAN STORMWATER RUNOFF

                              ----------                              


                        Thursday, March 19, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. Good morning. The Committee will come to 
order.
    Today's hearing examines efforts to control urban 
stormwater runoff. In many parts of the country, stormwater is 
a growing problem that impairs both city budgets, as well as 
nearby waters. Arresting the urban runoff problem will result 
in significant and immediate improvements to public health and 
the environment.
    Stormwater runoff is the water associated with a rain or 
snow event that runs over the ground and eventually enters into 
a water body.
    In a natural environment, most precipitation is absorbed 
into the ground before it enters streams and rivers. However, 
in urban environments it is a very different matter. The large 
amounts of impervious surfaces in city's results in significant 
quantities of stormwater entering stormwater and sewer systems. 
Running across streets, urban runoff picks up sediment, oils, 
grease, and a host of toxic pollutants. As cities grow, these 
surfaces become larger. This results in greater flows and 
volumes of stormwater, as well as increased pollutant loadings.
    These large flows of stormwater are usually dealt with in 
one of two ways. In some communities, they are discharged 
directly into water bodies, without the benefit of treatment. 
As a result, streams and rivers are continuously buffeted by 
whatever pollutants happened to lay on the city streets at the 
time.
    In other cities, the stormwater is added to wastewater and 
should ultimately be treated by a wastewater treatment 
facility. However, during many wet weather events, raw sewage 
and stormwater are intentionally discharged directly into local 
waters before treatment so as to not overwhelm the system. 
These are known as Combined Sewer Overflow events, and, as 
might be expected, they represent serious threats to public 
health and water quality.
    In order to mitigate the impacts of stormwater and CSO 
events, cities across the Country have chosen a variety of 
different approaches. Some cities have reengineered their 
sewers into separate pipes that carry sewage and pipes that 
contain stormwater. Other approaches, used by some of the 
cities represented here today, involve building giant tunnels 
that will temporarily store combined sewage and wastewater, 
rather than discharging it untreated into the water bodies. 
Both of these engineering-based approaches are very expensive 
and can be long-term propositions.
    In this time of economic uncertainty and tight municipal 
budgets, it may behoove city planners to look in other 
directions for ways to deal with the impacts of urban 
stormwater runoff. Among these alternate approaches is the 
incorporation of green infrastructure or low impact development 
approaches.
    Green infrastructure approaches take a very different view 
of stormwater control. Instead of engineering the stormwater 
system to deal with increasingly large amounts of stormwater, 
these low impact development approaches utilize technologies 
that aim to reduce the amount of stormwater that even enters 
the system. This is achieved through processes that encourage 
enhanced infiltration and evaporation processes. Simple 
approaches such as green roofs, increased tree cover, 
disconnecting downspouts, and adding more green space can go a 
long way to reducing the amount of stormwater that enters into 
sewers. And, in some circumstances, these technologies can 
realize significant cost savings for municipalities and 
building owners.
    Nevertheless, many of these technologies are new and have 
not been applied in all conditions and cities. I hope to hear 
testimony today that will answer a few key questions:
    First, what barriers exist in regards to the increased 
adoption of green infrastructure technologies and approaches?
    Second, what can the Federal Government--both EPA and the 
Congress--do to reduce those barriers?
    And, third, what process does EPA use, and should EPA use, 
in balancing the need to promote promising new technologies, 
while at the same time protecting water quality?
    I look forward to this morning's testimony from our two 
panels of excellent witnesses, and I would like to extend a 
special welcome to my mayor from the city of Dallas, Mayor 
Leppert.
    Thank-you for appearing here today, and sharing with us the 
experiences of Dallas.
    I now yield to Mr. Boozman, the Ranking Member.
    Mr. Boozman. Thank you, Madam Chair.
    Today, the Subcommittee begins to explore another important 
topic, urban stormwater runoff. Ignored in the past, more 
public attention is slowly being paid to the deteriorating 
impacts of urban stormwater runoff.
    Our Nation's health, quality of life, and economic well-
being rely on an adequate supply of clean water. Industries 
that rely on clean water, like farming, fishing, and 
manufacturing, contribute over $300 billion a year to our gross 
domestic product.
    In the past three decades, this Nation has made significant 
progress in cleaning up our rivers and lakes, but there is 
still much to be done; and, in these economically challenging 
times, we must be sure that, with the limited funds that we 
have, we are getting the most clean water for our dollar.
    One of the many factors that affect the water quality of 
our lakes, rivers, bays, and estuaries is urban stormwater. The 
impervious surfaces found in the urban environment accelerate 
drainage through curb gutters and drains to nearby natural 
streams and water bodies. As it flows through the urban 
landscape, the water picks up contaminants and sediment, and 
dumps them into the receiving waters.
    In a more naturally vegetated landscape, the water moves 
more slowly, much of it is soaked up by the soil, and plants, 
contaminants and sediments tend to be filtered out.
    Cities and towns face the challenge of providing drainage 
without exacerbating flooding or diminishing water quality in 
local streams. This is accomplished through a host of 
traditional measures, including underground conveyances and 
catch basins.
    Some have suggested that urban areas need to employ more 
green technologies or limited impact designs to reduce the 
quantity and rate of flow of stormwater, and thereby reduce the 
impacts of stormwater on the environment. These measures 
include green roofs, permeable pavement, curb cutouts, rain 
barrels, and buffer zones. These approaches have been 
introduced in areas where runoff is especially prevalent.
    These measures can be expensive, and their effectiveness 
will vary depending on the characteristics of the areas where 
they are used. For example, permeable pavement will not have 
much effect on slowing runoff in areas where the natural soil 
is relatively impervious to begin with.
    Nevertheless, where the right conditions exist, new 
technologies and designs can be cost-efficient and effective in 
managing stormwater. Where they work, these innovative features 
reduce the need for traditional stormwater infrastructure. 
Municipalities need a variety of tools in their toolbox to 
address stormwater management. Entities need to stay educated 
on all the options, both traditional measures, as well as new 
or green designs. Nongovernmental organizations, such as the 
National Association of Flood and Stormwater Management, 
agencies and certain environmental organizations can be very 
helpful in educating local officials about the various tools 
that are available and under what conditions they have proven 
to be useful.
    But, in the end, it is the local officials, both elected 
and professional, who must decide what is the best solution for 
their specific circumstance. We all want the same goal, which 
is clean water. As we at the Federal level look at the Nation's 
stormwater policy, we must be careful that we don't impose 
solutions on municipalities that may not be the best fit, 
either technically or economically.
    I think that we can accomplish a lot with education 
outreach to help local officials consider all options. 
Additional research and development of innovative technologies 
and designs would help identify the most efficient and 
effective measures, and add to the tools available to local 
officials. We should consider what would be the appropriate 
Federal role in bringing such technologies and designs to the 
marketplace.
    Urban runoff accounts for 9 percent of impaired rivers and 
streams, and 12 percent of impaired bays and estuaries. 
However, in our efforts to be more conscious of our 
environment, we must not lose sight of the cost of implementing 
new technologies and designs.
    Also, one-size-fits-all solutions or regulatory schemes to 
deal with impairments will not work for water quality 
improvement. Soil hydrology, topography, weather, climate, and 
other conditions vary widely from site to site, region to 
region, and over time.
    Future solutions need to be science-based, economically 
feasible, and compatible with regional and site-specific 
conditions. Where appropriate, green infrastructure should be 
considered as part of the strategy in managing stormwater 
runoff, but by no means should it be a requirement. These new 
practices and technologies could result in numerous economic 
and environmental benefits. However, communities need to do a 
rigorous analysis of the costs and benefits of installing these 
technologies and decide for themselves the most appropriate 
course of action.
    I hope to learn more from the hearing today, from the 
panels of expert witnesses, and look forward to your testimony, 
and I appreciate your being here.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much for your statement.
    I understand we have no opening statements, so we will go 
right to the first panel.
    We are pleased to have three distinguished mayors here to 
testify on our first panel. The first one is my own mayor, 
Mayor Tom Leppert, from Dallas, Texas. He will testify first 
and will be followed by Mayor Mark Funkhouser from Kansas City, 
Missouri. Our final witness on this panel is Mayor Tom Barrett 
from Milwaukee, Wisconsin. I am certain he will be recognized 
by many of the people here; he is a former House Member, and we 
want to welcome you back.
    Your full statements will be placed in the record, and we 
ask that you try to limit your testimony, if possible, to five 
minutes. We will make sure that your full statements are in the 
record.
    Mayor Leppert, you may begin.

TESTIMONY OF THE HONORABLE TOM LEPPERT, MAYOR OF DALLAS, TEXAS; 
THE HONORABLE MARK FUNKHOUSER, MAYOR OF KANSAS CITY, MISSOURI; 
  AND THE HONORABLE TOM BARRETT, MAYOR OF MILWAUKEE, WISCONSIN

    Mr. Leppert. Thank you. Chairman Johnson, Ranking Member 
Boozman, and Members of the Subcommittee, thank you for this 
opportunity to provide testimony regarding efforts to assist 
urban stormwater runoff.
    I am Mayor Tom Leppert, and I have the privilege of serving 
as the mayor of the city of Dallas, Texas. I am here to share 
some of our experiences in the management of stormwater runoff.
    Not too many years ago, you would not have found the city 
of Dallas included on the list of what we now commonly refer to 
as green cities. However, today, I am convinced that Dallas is 
at the forefront of leading the Nation in environmental issues.
    The city of Dallas, like many other cities, is extremely 
interested in expanding our use of green infrastructure and low 
impact development to manage the quality of stormwater runoff. 
Stormwater runoff is best treated as close to its source as 
possible, rather than using the ``end of the pipe'' structural 
control solutions.
    Dallas has utilized several green infrastructure techniques 
and tools to treat stormwater runoff at its source. At various 
city facilities, we have used rooftop and ground-level cisterns 
for collection of rainwater for use in irrigation; permeable 
paving to reduce runoff and increase both infiltration and 
pollution removal; bio-retention for onsite stormwater 
treatment to its discharge offsite; and in our fire stations we 
use separators to divert fire engine and apparatus wash water 
from the stormwater drainage system.
    We have also adopted a strategy to require more sustainable 
and greener buildings. We are probably one of the first cities 
in the Nation that now has standards in place to require all 
buildings--public, private, large, small, residential, 
commercial--all to be green buildings. We are achieving this in 
a two-phased implementation. The first implementation phase is 
this year and the second will be in 2011. In addition to that, 
we have 27 buildings that have already maintained and achieved 
green building standards.
    In Dallas, we are also updating our development code to 
incorporate the concept of integrating stormwater management in 
terms of drainage planning and post-construction control of 
urban runoff into the early stages of site development.
    One of the obstacles that all cities are facing is 
obtaining the buy-in of developers and their engineers. It is a 
myth that is commonly perpetuated that developers think that 
green infrastructure will add additional costs. I can tell you 
that, as a former CEO of a major international construction 
company, I can tell you unequivocally that building and 
developing green does not--does not--automatically mean higher 
construction costs. And it is also my personal belief that it 
is imperative for the sake of our future generations that 
everybody begins to move in this direction.
    The first step, of course, is education and training. We 
are utilizing a phased approach in which integrated design and 
planning is optional during the first phase. Phase 2, we 
believe, will include incentives for developers who adopt these 
practices. For example, if certain levels of green 
infrastructure and low impact development techniques are used, 
we may very well reduce parking requirements, reduce the right-
of-way with requirements, both of which would put money into 
the pockets of the developers. We believe we will be the first 
city in Texas to do this.
    In Phase 3, we also assess effectiveness and consider 
making the use of green infrastructure tools mandatory. One of 
those that is an interesting example may be pervious concrete. 
We have had some specific examples with this in our South 
Central Police Station. Initially, we wanted to use this 
application for all paved areas, as it both treats stormwater 
runoff and also reflects heat, which, of course, lowers the 
ambient temperature, and that is a big plus in Texas, as it is 
throughout the South.
    Unfortunately, we were only able to use it in our overflow 
parking lot. The reason is very simple: traditional strength 
tests used for regular concrete don't work with pervious 
concrete due to its porous nature. Engineers have traditionally 
relied upon compressive strength as a key design element. 
Determining the structural strength is crucial because it 
drives the decision of whether it can only be used for 
sidewalks or light vehicles, as opposed to neighborhood 
streets. Perhaps this is an area which Congress can direct the 
National Institute of Standards and Technology to work on.
    In addition, I would like to touch briefly on the great 
progress that we have made in stormwater management systems. 
Back in 2006, the city entered into a consent decree with the 
EPA, Department of Justice, and State of Texas to address 
issues with our stormwater management program, particularly in 
the areas of staffing and housekeeping practices.
    I am pleased to tell you that, two and a half years later, 
we are exceeding the requirements. We maintain compliance with 
required inspections; we have modified our supplemental 
environmental wetland project to make it greener by 
incorporating a pretreatment cell to remove pollutants; and we 
are also implementing an environmental management system with 
third party evaluation under the International Standards 
Organization.
    Dallas is the first city to get certified across all major 
operations, including feet, large facilities, a regional 
airport, and water utility.
    In conclusion, I want to commend the House of 
Representatives for the recently passed Water Quality 
Investment Act of 2009, particularly the better position that 
it affords us. I would also like to thank the Subcommittee for 
taking up the issue of urban stormwater runoff. Despite the 
current obstacles, cities across the Nation, like Dallas, are 
implementing and supporting the expanded use of green 
infrastructure and low impact development tools and techniques. 
These tools are needed to address the overarching challenges of 
urban stormwater runoff and the urban heat island effect. The 
reauthorization of the Clean Water State Revolving Fund Grant 
program is vital to expanding the use of these tools, and your 
continued support is appreciated.
    Madam Chairman, thank you for this opportunity.
    Ms. Johnson. Thank you very much.
    Mr. Funkhouser.
    Mr. Funkhouser. Madam Chairwoman and Ranking Member, thank 
you for this opportunity to address your Subcommittee on water 
resources and the environment regarding Kansas City, Missouri's 
efforts to address urban stormwater runoff. I also want to 
thank you again for visiting Kansas City last year to review 
our stormwater facilities and our related efforts.
    We also appreciate the support you provided to our 
Congressman, Representative Emanuel Cleaver, in his effort to 
secure a 20 percent designation for green strategies as an 
amendment to H.R. 1262, the Water Quality Investment Act of 
2009, which passed out of the House of Representatives just 
last week. As deliberations on this measure and related 
measures proceed, we look forward to working with you to ensure 
the provision of enhanced Federal resources, including direct 
grants to communities with sewer control plans, which are 
needed to assist communities such as Kansas City. Truly, and 
without equivocation, your commitment to improving our Nation's 
water infrastructure is commended and appreciated.
    In terms of today's hearing, I am pleased to report that 
our community's vision for Kansas City is to become America's 
Green Region. As you know from your visit to our city, Madam 
Chairwoman, we have a seriously outdated system that was built 
over 100 years ago. Moreover, we face the dual challenges of 
meeting modern-day demand and investing in strategies required 
by the future. In this regard, our region is committed to 
investing in green infrastructure not only to address our water 
quality issues, but also to create jobs and enhance our 
citizens' quality of life.
    Kansas City is so committed to this vision, we have 
developed, through a five-year community driven process, a 
Green Solutions Position Paper, which is attached and hereby 
incorporated into this testimony by reference. This paper was 
endorsed by city council resolution and embraced by our city 
staff through various implementation initiatives. This document 
provides the foundation for our recent submittal of Kansas 
City's Overflow Control Plan to the U.S. Environmental 
Protection Agency. This plan includes a significant investment 
in green infrastructure and green initiatives to help address 
our combined sewer overflow problem.
    Kansas City also adopted a cutting-edge stream setback 
ordinance, which is the backbone to our green infrastructure 
program. We also changed our development codes to encourage low 
impact design approaches. These green initiatives will help us 
prevent problems in the future, but they will not address the 
massive flooding issues that we have in our already developed 
areas, which is estimated at $2.1 billion. This also does not 
include the $2.4 billion we need to invest in our sewer plan.
    In Kansas City, there are three issues associated with 
green infrastructure:
    Green solutions are a relatively new technology in Kansas 
City. We need to better understand the true costs and benefits 
of the long-term impacts of this approach. The two biggest 
barriers to success are time and money. We will need time to 
innovate, and a significant investment to realize and evaluate 
the actual impacts to water quality. We look forward to a 
partnership with the Federal Government to move ahead with 
green solutions on the scale needed in Kansas City.
    Two, green solutions are only one part of the overall 
strategy. We will need to replace our gray infrastructure, such 
as pipes, storage facilities and plant upgrades. They will 
enhance our neighborhoods, and we hope they will reduce the 
level of investment we need to make in gray, traditional 
infrastructure.
    Third, stormwater management, in most cities across the 
Country, is typically underfunded. These facilities are out-of-
sight, out-of-mind. Green infrastructure is not out-of-sight. 
The plant materials of green infrastructure create a visual 
presence above ground and not only require more frequent 
attention, but a different type of maintenance. On-going 
maintenance of green infrastructure is typically left to the 
local government and, in any economic situation, is difficult 
to fund. State and Federal funding for green infrastructure is 
very limited. There are some funds available for research. The 
U.S. Environmental Protection Agency is monitoring the impact 
of a green infrastructure project Kansas City is building on a 
100-acre pilot project. The Federal Government has invested in 
Kansas City's major flood control system, but that has barely 
scratched the surface in terms of addressing our overall 
flooding issue. State and Federal funds are not as readily 
available for traditional stormwater capital investments. 
Cities don't typically invest until after a major flood has 
occurred.
    Kansas Citians value natural resources. Protecting water as 
a valuable resource is a top priority for us. Kansas City is 
embracing green solutions while recognizing the risks 
associated with this strategy. The level of investment needed 
and risks are great. It is our hope that Congress and the 
Administration will work hand-in-hand with local governments to 
explore and implement the green infrastructure approach.
    I want to thank you again for allowing me to testify. I 
would be happy to answer any questions.
    Ms. Johnson. Thank you very much, Mr. Mayor.
    Now we will have Mr. Barrett.
    Mr. Barrett. Thank you very much, Madam Chairwoman and Mr. 
Ranking Member and Members of the Committee. I appreciate the 
opportunity to be here today to talk about Milwaukee's 
experience.
    Today, urban areas face a far different threat to water 
quality than existed in 1972, when the Clean Water Act was 
passed. In Milwaukee, for example, the latest data shows that 
89 percent of the bacteria pollution entering our major rivers 
and Lake Michigan comes from urban and rural runoff. Sewer 
overflows and wastewater treatment plants comprise the other 11 
percent.
    The science is clearly telling us that, to make real 
progress toward achieving swimmable and fishable waterways, a 
water policy in the future has to address both point and non-
point pollution.
    According to the EPA, the Nation faces a $300 billion to 
$500 billion water infrastructure funding gap for what needs to 
be spent on water-related infrastructure over the next 20 
years. Federal assistance has declined more than 70 percent, 
and now local communities shoulder more than 95 percent of the 
cost of clean water.
    Sewer pipes in older cities leak. Fixing those leaks in the 
nearly 6,000 miles of sewers in the Milwaukee region is a huge 
financial strain on local budgets. But Milwaukee has not been 
shirking its responsibility on stormwater. We have a stormwater 
fee that is based on impervious surface area. We use that 
funding source to help meet the backlog in sewer line repairs.
    But, due to a lack of funding, our current replacement 
cycle for our local sewers is 140 years. That hard reality 
poses a significant threat to the great progress we have made 
over the years to reduce combined sewer overflows from 60 per 
year to an average of two just year.
    I stand with my fellow mayors in the Great Lakes region in 
strong support of Congress to establish a Clean Water Trust 
Fund to rebuild our Nation's water infrastructure. Our Nation's 
cities need the Federal Government to help close the water 
infrastructure funding gap that has grown over the years.
    To ensure that future investments result in clean water, we 
need to think like a watershed. We must integrate our efforts 
to reduce pollution from our factories and wastewater treatment 
plants with efforts to reduce stormwater pollution. This 
integration could start with the EPA helping the Milwaukee 
region move to a watershed permit and to help us to pilot a 
water quality trading system that could be model for the rest 
of the Country.
    Milwaukee has attacked polluted runoff with a variety of 
green infrastructure approaches, including green roofs, such as 
the one on the City Hall Municipal Building, rain gardens and 
green roofs at our public housing developments, as well as 
porous pavement.
    One experience with green infrastructure in particular that 
I would like to share with you was recognized with a national 
award from the Sierra Club and has turned out to be quite 
popular with the public.
    We had a brownfield in the Menomonee River Valley that used 
to be a former rail yard and manufacturing center. It is 1200 
acres.
    When looking at how to deal with the water that would run 
off the site after it was redeveloped, there were two paths to 
consider. One choice would have been to build a big pipe in the 
ground to collect the polluted water and send it to our 
treatment plants. The problem with traditional pipes is that 
the public doesn't get any direct enjoyment with this type of 
hidden infrastructure. You can't hold a picnic or a tailgate 
party in a deep tunnel.
    Instead, we decided to keep the water out of the sewer 
system by using green infrastructure on the surface of the land 
to capture and clean every drop of rain that falls on the 
business park before being slowly released into the river.
    We created a beautiful stormwater park where people use the 
Hank Aaron Trail to hike and bike and walk to Miller Stadium, 
where the Milwaukee Brewers play baseball. There is easy public 
access to the Menomonee River, where visitors can hike or fish. 
Youth workers have planted prairies and hundreds of stormwater 
trees to restore habitat.
    The businesses that locate there benefit financially 
because they can rely, to a great extent, on the regional 
stormwater system that was created, rather than bearing the 
cost on their own. They also benefit from the enhanced green 
space and aesthetics. Using green infrastructure made it 
possible to connect people and jobs and recreation at a 
formerly blighted area in the heart of Milwaukee.
    Some of you are from the Gulf Coast, some of you are from 
the East Coast, some of you are from the West Coast. I am proud 
to be from America's ``Fresh Coast'' because we have a huge 
body of fresh water right at our front door, and this will 
become increasingly important in the next decades. 1.2 billion 
people worldwide suffer from lack of clean water. 2.6 billion 
people lack adequate sanitation, primarily due to water 
conditions.
    As mayor, growing our water economy is central to my vision 
for Milwaukee. I am not talking about selling our water. I am 
talking about growing and selling our technology and expertise 
with treating freshwater. If we can figure out how to cost-
effectively manage polluted runoff, our Country will lead this 
sector of the emerging global green jobs economy.
    Lake Michigan is a tremendous asset for Milwaukee. The 
cities around the lake do not want to see us backslide. That is 
why we need the Federal Government's help.
    I am not asking the Federal Government to do it all. But 
with this type of help, with a trust fund, we believe that we 
could make a lot of progress. Thank you very much.
    Ms. Johnson. Thank you very much.
    We will now begin our first round of questions.
    My first question is to you, Mr. Barrett. Could you 
elaborate just a little bit on the aesthetic and financial 
benefits that you related to in your testimony of Milwaukee 
Stormwater Park?
    Mr. Barrett. Well, when I discuss the Menomonee River area, 
if you haven't been to Milwaukee, it was an area that for many, 
many years was the center of the Milwaukee Road. It was a 
tremendous hub of activity. It then became essentially the 
armpit of the city. It was a place that people didn't go to. 
You literally needed an all-terrain vehicle to get from one 
area, one part of the valley to the other area, and we took a 
massive cleanup attempt and it was successful.
    Now we have literally thousands of jobs there, which is 
great. It connects Miller Park with the Harley Davidson Museum, 
which has been a huge attraction as well. But, really, the part 
that people get excited about is the Hank Aaron Trail. 
Menomonee River is a place where you can go and you can be in a 
canoe, you can fish, you can hike in the area. So it has become 
really a gem. And when it was recognized by the Sierra Club, it 
wasn't just one of the 25 in the Nation, it was one of the 25 
worldwide that they saw us using these sustainable techniques 
to really turn around this area.
    Ms. Johnson. And you mentioned the vision for Milwaukee and 
growing the city's water economy. Give me just a little bit 
more description of what you have in mind.
    Mr. Barrett. Well, the history of Milwaukee is intertwined 
with beer, with tanneries, a lot of water-related industries, 
and that has changed over time. What hasn't changed is the 
expertise that we have in our community for water technology. 
We have over 120 companies that are involved in water 
technology. Just earlier this week, the governor of the State 
of Wisconsin announced $240 million in building construction, 
including an institute for fresh water research at the 
University of Wisconsin-Milwaukee. So we see it as a real 
economic hub and economic engine for the future.
    As I said, we think that fresh water is going to be vital 
in the coming decades, and we couldn't be positioned in a 
better place. Again, we are right on the Fresh Coast. We think 
that that is going to put us in a very, very good spot in the 
future.
    Ms. Johnson. Thank you very much.
    Mr. Leppert, you go into some detail about the green 
building program that was adopted by the city of Dallas last 
year. Highlight that a little bit more for us, if you will.
    Mr. Leppert. We believe it is an important issue if you 
look at the building process in total. If you look at it on a 
national basis, over a third of the waste that goes into 
landfills comes from building. Approximately a third to 40 
percent of the greenhouse gases that are emitted come from that 
building process, so it becomes a very important part of the 
overall environmental.
    We believed it was important, as some cities have, to not 
only take steps to address the public buildings, but we wanted 
to go further than that. We wanted to adopt policies that 
encompassed all of the buildings that are built in the city of 
Dallas. We adopted that as a policy, but then we took a very 
different route. We then, instead of just leaving it as a 
policy, we then engaged industry with a number of different 
tasks forces that came in to identify what was the proper 
standards, using leads, National Homebuilders Association, 
etc., because we wanted to incorporate both commercial and 
residential. But then we also worked with them on what the 
implementation schedule should be to ensure that there was a 
very sound understanding of the education that needed to take 
place, especially with the smaller construction firms that were 
involved in our community.
    I can say that we have not only got to that point, we got 
to that point in a way that has really brought the community 
together. There was very little dispute because we brought 
industry in. In fact, I would tell you that this was actually 
approved on a consent agenda with absolutely no discussion, I 
think, again, because of the process.
    So we believe, as I said, we were one of the first two 
cities in the Nation that adopted green building that 
encompasses all the buildings that will be built in the city of 
Dallas, and we are just excited for what it does for the city 
of Dallas not only from an environmental standpoint, but also 
positioning us to attract business, attract business knowing 
that more and more businesses, as well as individuals, are 
going to make the selection based on the type of environment. 
We think Dallas is positioned very well.
    Ms. Johnson. Thank you very much.
    Mr. Funkhouser, in one piece of your testimony you 
mentioned that the infrastructure is not out-of-sight. Could 
you give us a little bit more elaboration on that?
    Mr. Funkhouser. When you do the green infrastructure, you 
are planting plants, you are creating these swales. In the 100-
acre that we are working on, Marlboro, one of the neighborhoods 
in Kansas City, it is one of the neighborhoods that is low 
income, right on the edge, and this is a major investment for 
us to help bring that neighborhood back. And they were willing 
to, and wanted to be, the sort of guinea pig for this.
    It has to do with creating, instead of a normal catch basin 
that you see at the end of a street, it is one of these 
depressions, a swale that is engineered so that the water goes 
in there and stays there; it doesn't go into the sewer system, 
it doesn't go into the pipes. But that has to be maintained.
    There is a whole lot of work that has to go on to maintain 
this stuff, which is above ground, which you can see, in terms 
of taking care of the vegetation and making sure that the thing 
continues to work well. But when you do that, you get the 
benefits that Mayor Barrett was talking about. It actually can 
enhance the attractiveness of the neighborhood; it can enhance 
the economic value of the homes that are built there.
    But it requires effort; whereas, if you put a big pipe in 
the ground, nobody knows it is there, and, if it is well built, 
it will 30, 40 years before you ever have to do anything about 
it. This stuff you are going to have to take care of at a 
certain level every year.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes the presence of our Full Committee 
Chair and call on him.
    Mr. Oberstar. Thank you, Madam Chair. This is a very, very 
important hearing, and I am delighted that you and the staff 
have undertaken to do this. I thank Mr. Boozman as well for his 
participation, as always.
    This issue of combined sewer overflows is one that has long 
been neglected, but one that was foreseen in the Clean Water 
Act of 1972, and before that. My predecessor, John Blatnik, 
former Chairman of this Committee, was the author of the 
Federal Water Pollution Control Act of 1956, the foundational 
legislation that established today's program of clean water. 
Then, he knew, we knew that--by we I mean the scientific 
community, the practitioners on the front line, mayors, 
township officers, county commissioners who were out there on 
the front lines knew that we had to deal with this problem of 
combined storm and sanitary sewers, that we also had to deal 
with storm sewers and the overflow as the urbanization of 
America accelerated.
    In the mid-1960s, the U.S. Geological Survey sent a team to 
California to evaluate a phenomenon, that there was a huge 
amount of runoff. Ditches and drainage areas, as well as 
receiving creeks and streams, were getting higher levels of 
water than they had ever experienced. The USGS team reviewed 
the geography, reviewed the runoff areas, measured rainfall for 
that particular year, then went back through all the records.
    Rainfall hadn't changed, but the runoff had changed. Runoff 
had changed because more areas paved over for parking lots of 
shopping centers, for city streets, for other paved areas of 
urban sprawl. So the runoff was twice what it had been a 
decade, two decades, three decades earlier, going back into the 
1930s, where they had records.
    So we have now not only the phenomenon of combined storm 
and sanitary sewers, increased runoff, continuing urban sprawl, 
and climate change that is now beginning in certain areas of 
the United States to produce more precipitation. So separating 
combined sewers, some of the approaches taken have great 
promise, deep underground tunnels. They are expensive, take a 
long time to complete.
    I went to Atlanta to travel their sewer with Mayor Jackson. 
It was wonderful to see this brave lady in a yellow 
construction rubber suit, wetsuit, boots up to her hips, the 
two of us slogging through the tunnel. It is going to take them 
years to do this, but it will provide a means, as it will in 
Chicago, for underground treatment before the water runs off. 
Retention basins are another option. But all of those cost a 
good deal.
    The stimulus provides an opportunity for us. We had $14 
billion in this Committee in the stimulus. Mr. Mica and I and 
Members on the Republican side and the Democratic side agreed 
that was what we needed to do. And if our Committee's plan had 
passed, it would have been really good for America. Better for 
America than the one we have now. We got cut back, 
unfortunately, to $4.6 billion, and half of it in loans and 
half in grant money.
    We passed the legislation under the leadership of 
Chairwoman Johnson, with Mr. Boozman's participation, Mr. Mica, 
to replenish State revolving loan funds. But that is a fallback 
position. The Clean Water Act of 1972 provided grant money, up 
to $6 billion for wastewater treatment facilities, for 
interceptor sewers, storm sewers, and separating combined storm 
and sanitary sewers; and most of those funds, that is, 60 
percent, were dedicated in the first six years of the program 
to the major metropolitan areas where the largest waste streams 
occurred and where we needed to invest the greatest proportion 
of funds.
    Then, in the early 1980s, the agreed upon plan--though not 
specified in law, but agreed upon plan--was to shift 60 percent 
to commit in these under 25,000 population, 40 percent to the 
major areas. But that was the time that Ronald Reagan was 
elected president, changed the shape of government. The grant 
funds were eliminated, converted to State revolving loan funds.
    I sat on the House Senate Conference Committee when all 
that occurred and pleaded with the Senate to accept the House 
position. I will never forget the Senator from Vermont saying, 
well, the vote is 5 to 4 against the House position. I said, 
but, forgive me, you didn't ask Jennings Randolph or Senator 
Moynihan. He said, I could, but the vote will still be 5 to 4. 
And like that the switch was flipped and $6 billion 
disappeared. We had a $2 billion a year loan program, and then 
over time that diminished to less than $600 million in the last 
year of the Bush Administration.
    On a bipartisan basis, our Committee has upped the ante 
again. We want to replenish those funds, but it is still going 
to be a loan program. The stimulus gives an opportunity to make 
some really significant changes and to do so in a very short 
period of time.
    We also, in that bill that passed the House, Chairwoman 
Johnson's water bill, included funding for separation of storm 
and sanitary sewers.
    Now, you can perform a great service for us, mayors. You go 
tell your senators that they need to act like senators, and not 
like squabbling children, and pass something over there. We are 
tired of passing legislation that goes to the dead letter 
office 200 yards away.
    Thank you for your contribution this morning.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    The Chair recognizes Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. I would like to defer 
my questioning until later and recognize Mr. Westmoreland in my 
stead, with your permission.
    Ms. Johnson. Yes.
    Mr. Westmoreland. Thank you for yielding.
    Mayor Leppert, let me congratulate you on working with, it 
sounds like, the industry that is in Dallas that is in the 
building industry. I am a former builder and it is a breath of 
fresh air to hear of the government working with an industry to 
make life better for all citizens, so I do want to thank you 
for that.
    I do want to ask one question, though. You mentioned that 
you had been in the building business, I guess through 
development, and that the cost was no higher for these energy 
conservation jobs. That is not true where I am from, and I 
didn't know how you equated that, if you were doing some cost 
benefit analysis.
    Mr. Leppert. On a personal basis, I am convinced that if it 
is done in the right way, which means that you bring the green 
building concept in at the very outset, that you do it 
literally when you start thinking about the project, when you 
first started that design. I can tell you from personal 
experience, having been involved in about $13 billion worth of 
green buildings, be it small projects, large projects, I think 
that you can bring in a green building within a percent or less 
of traditional building if you do that planning up front.
    Clearly, as we move forward with it in Dallas, one of the 
great advantages that we had is usually industry will raise 
their hand and say, hold it, more cost. I brought such a large 
base of experience from the private side into it that I could 
talk about how you accomplish that cost reduction and how you 
accomplished it in ways that, again, brought green building in, 
even at gold standard levels, within a percent; and I am 
convinced that at silver level and below that you can do that 
with almost no differential, and, again, to give concrete 
examples of buildings that have been built across this Nation, 
literally across the Nation where that is the case.
    Mr. Westmoreland. I hope that you will share that, wherever 
you go, with your other mayors and county commissioners and 
others.
    This question would be for any of the mayors there. Have 
you all changed any of your building ordinances or codes to 
development codes to allow for narrow streets, less curb and 
gutter, more open ditch, runoff, less impervious surface. I 
know that in a lot of my business, you know if you built a 
building that had X number of square feet, then you had to have 
so many parking spaces that were paved. I am glad to read in 
some of the testimony that you are going away from the 
impervious surface for these overflow parking lots. These are 
some very cost-effective things that we can do that helps our 
environment.
    To talk about them is one thing, but have you actually gone 
in and changed your ordinances and your development rules and 
regs to put into place what you are talking about?
    Mr. Barrett. If I may, our State has provided leadership on 
that as well and requires us to make sure that the runoff from 
sites over a given size stays on the site. So, for example, 
when we have a developer come in who wants to do a new store, a 
big box store, for example, we move away from the discussion 
that they have to have enough parking for Christmas Eve, which 
is always sort of the standard they come in with, and use a 
lower parking per square foot measure, but also require them to 
have right on that plot either some sort of pool to keep it 
there or to work with us to pay for it.
    We also have found this impervious surface. The more 
impervious surface you want to have, the more it is going to 
cost you and, quite honestly, that has worked quite well also.
    Mr. Westmoreland. Okay, but have you really put in an 
ordinance that----
    Mr. Barrett. Yes. We have to comply with a State law. To 
answer your question, yes, we have. So by working with the 
State, we have to do it. There is also a new subdivision in the 
southern part of our community where we have smaller streets or 
more narrow streets and areas for runoff right in that 
subdivision as well.
    Mr. Westmoreland. Okay.
    Mr. Funkhouser. We have also put those kinds of things into 
ordinance. We have put particularly stream setback we have 
moved, I think it is, 300 feet for certain kinds of streams and 
150 feet for others, certain kinds of development.
    Kansas City straddles the Missouri River, so it has the 
Little Blue River and two or three others that flow into it, 
and we are at the bottom, so to speak, of a whole metropolitan 
area, and we have streams coming in from everywhere. So the 
whole stream setback issue, it was not on the consent agenda 
for us, but it was very cutting-edge when we finally adopted 
it. And I would say that on the development code issues our 
council is pretty unified on this and the community, 
particularly the chamber of commerce and folks like that, the 
business community, has really kind of got the green region bug 
and they are with us on all this stuff. Now, there is debate 
and there is discussion, but the general direction is 
absolutely to put this stuff in ordinance to control 
development in a way--because we know that is what really, 
ultimately has the most impact on these issues, is having it 
from the beginning and catching it at the source. Doing the 
green buildings, which we are saying every city building will 
be at least leed silver. That kind of thing we know has the 
most impact.
    Mr. Westmoreland. Well, I just think it is important that 
these things be in the ordinances so these builders and 
developers, and whoever is coming in, knows up front what they 
are doing and what to expect, because it goes back to what 
Mayor Leppert said about if you get this in on the planning 
stage, you might work your cost down. So I think it is very 
important that you all do this and don't just do it on a case-
by-case basis, but let it be for the entire thing.
    Ms. Edwards. [Presiding.] Thank you, Mr. Westmoreland.
    Mr. Ortiz?
    Mr. Ortiz. Thank you, mayors, for joining us today. I am 
happy that you are here.
    In the Gulf Coast, we have clean water, fresh water. In 
Dallas we have the Dallas Cowboys. Thank you for joining us 
today.
    You know, I was a county commissioner at one time, and I 
was just wondering what is the biggest impediment that you have 
when you try to initiate these programs? Is it funding, 
environmental studies, the community who might be for or 
against the project? Could you elaborate a little bit on that?
    Mr. Leppert. I think in some cases it could be all of the 
above, and it probably depends project by project. Clearly, 
when we are looking at, as we have in Dallas--and I think with 
the other mayors that are here with me today--some 
infrastructure that literally goes back 100 years. Then it 
becomes a cost issue, just the significance of going in, 
renovating or replacing large infrastructure within some of the 
older cities across the Nation. I would point that out.
    I would also point out too--and you touched on another one, 
too--just the regulatory process of going through things. 
Clearly, we at the cities put some of that in place too, but it 
comes from other places, and sometimes what we do is we layer 
upon layer upon layer, which then increases the cost, and from 
a timing standpoint pushes it so far out that it is very 
difficult to deal with.
    So I think, depending on the project, it is a combination 
of all of the above. But sometimes what we do is we put 
regulation on top of regulation on top of other regulations 
and, unfortunately, we create disincentives for people, and 
even cities, to make the necessary changes that are going to be 
in the interest of their taxpayers and their citizens.
    Mr. Ortiz. Anybody else like to elaborate?
    My next question would be some of the cities are impacted 
because when you have large fields, most of the time that is 
the water that drains out first, whether they are cotton fields 
or raising cattle fields, and that water washes into the city 
and then you have flooding. This is the case that we have where 
I come from. We are a large agricultural community and most of 
the water comes from thousands and thousands and thousands of 
acres of land, and it goes right through the city and it 
impacts sewers, dirty water, and it does a lot of damage. So I 
sympathize with all three of you because you do have serious 
problems.
    I am a new Member on this Committee and I am trying to 
learn from my colleagues here. We have got great Members. We 
have a great Chairman, great co-chairman. But it is good that 
you are here and maybe elaborate a little bit on the cost.
    Now, elaborate a little bit on the cost now. Your project, 
mayor, that you were talking--mayor from Dallas--how much is 
that cost for your project?
    Mr. Leppert. Well, it literally depends on the project. In 
fact, in Dallas--and I am sure in the other cities--it is 
broken up into many different projects, so you would almost 
have to ask which project are we talking about.
    Mr. Ortiz. So it takes several steps before you get to the 
end of the project that you are working on, right?
    Mr. Leppert. Yes, and depending on which project that we 
are talking about. The other thing that we have had done, which 
I think has produced some positive elements, is we have tried 
to develop many programs and broke our city up into 38 sub-
watersheds, as a way to refer to it, and then in each one of 
those try to develop specific plans, specific projects within 
each one of those to try to address the stormwater drainage 
issue, too.
    Mr. Barrett. One of the things that we are trying to do in 
Wisconsin is move to a watershed permit approach, so that you 
are not dealing with the finger pointing that results when you 
have different jurisdictions, some urban, some suburban, some 
rural. But if you go with the land and recognize the watershed 
approach, then you can come together in a much more effective 
fashion.
    For literally decades we had sewer wars in Southeastern 
Wisconsin and a lot of finger pointing. Now, the executive 
director of our sewage district has worked much, much more 
closely both with the urban leaders and with the suburban and 
rural leaders in the watershed to try to say, hey, we have to 
work together; and the more that we can work with EPA to go to 
that approach, the better job we think we can do.
    Mr. Funkhouser. You asked specifically, Mr. Ortiz, about 
cost. For us, the combined sewer overflow program that we have 
agreed with the EPA to implement is $2.4 billion. Now, that 
pushes us right to the outer edge of what the EPA says is 
affordable. My city has lower median household income than the 
surrounding suburban cities. That is going to really be 
difficult for us. That is one of the reasons why we are looking 
for help and one of the reasons why we want to have as long as 
possible to do that, and we want to be able to amortize that 
cost over the maximum number of years so that we can phase in 
the rate increases.
    One of the things that Mayor Barrett said was about the 
impervious surface fee. That is one of the things that we have 
done too. We have a fee that you have to pay, a stormwater 
utility fee, as part of your monthly bill, and it is based on 
the amount of impervious surface, rooftop and driveway and 
parking lot and so forth. But we are trying to keep those costs 
such that they don't pose an undue burden on development.
    We have these other issues that we are doing with stream 
setbacks and so forth, so we are on a very precarious 
tightrope. We want to be green. We have to clean up the water. 
We are putting 6.3 billion gallons of basically diluted sewage 
into our waterways every year because of the combined sewer 
overflow. I remind my citizens of that all the time when we 
talk about the cost. This $2.4 billion is a lot of money and 
they are worried about it, appropriately. But, on the other 
hand, while we need help, somehow we are going to pay this. 
Either we are going to pay it through our Federal tax bill or 
our State tax bill or the city water and sewer rates. But we 
can't leave this go for our children to deal with; we have got 
to stop putting this water out.
    Mr. Ortiz. Let me just say thank you for caring and thank 
you for the great job that you all do.
    Ms. Edwards. Thank you, Mayor Funkhouser.
    Dr. Ehlers?
    Mr. Ehlers. Thank you, Madam Chair. I will be brief.
    I just want to thank all three of you for the work you have 
done. I have a great familiarity with this because I am from 
Grand Rapids, Michigan, across the lake from Milwaukee. We live 
on the good side, but we faced this problem some years ago and 
I recall I personally met with the city commission because they 
were resistant to doing what had to be done, and I persuaded 
them in rather vivid language of what would happen to the river 
if they didn't. They took it upon themselves. I am very proud 
of my city. They solved the overflow problem, the combined 
sewer problem, and paid for most of it themselves, as you are 
doing.
    I must confess I get a little tired sitting on this 
Committee and having people come here from around the Country 
and saying, oh, we need money from you, we can't do this, we 
can't do this. And I remind them that their parents, who were 
far poorer than they are, put in the initial systems, sewer 
systems, and were proud to do it. I think that the citizens 
today should be proud to maintain the system and improve it and 
be proud to spend their own money doing it.
    So I just want to commend all three of you. You have done 
exactly what should be done. You have done it right. You have 
taken the responsibility upon yourself and I believe the rest 
of the communities across the Country are going to have to do 
that.
    I will add I have no problem with revolving loan funds and 
using the Federal borrowing power to help communities like 
yours. But I think every community has to face it themselves, 
and I think this is especially true because, if they don't, I 
don't want Federal program mandating to every little city just 
exactly how they are going to do it. You have designed programs 
that fit your community, your cities; you have arranged the 
financing; and I commend you for that and thank you for doing 
it.
    With that, I yield back.
    Ms. Edwards. Thank you.
    Mr. Baird?
    Mr. Baird. Thank, Madam Chairman. It is great to see our 
colleague again.
    Tom, good to see you again, and the other witnesses.
    Our Subcommittee has done great work, as always, our staff 
has, but when they list the various approaches to dealing with 
stormwater runoff, it is regulatory, technological. There is 
nothing in there about behavioral. And, as I walked to work 
this morning, I look at all the garbage along the street, the 
trash and cigarette butts, etc. My kids and I were in the 
arboretum here recently and scrambled over a bank and went down 
the river, and every tree had plastic trash bags attached to 
it.
    I am wondering what are you doing to try to make people 
aware--and this is really for this next panel as well, so I can 
get this on the record. What are we doing behaviorally to help 
people understand that what goes off our streets ends up in our 
water and has real consequences?
    Mr. Barrett. Well, I will say that that is actually one of 
the more challenging aspects, and we have had, at best, mixed 
success with, for example, the downspout issue, encouraging 
people, paying them, in essence, to disconnect their downspouts 
and have rain barrels or to have it runoff naturally. That has 
been the biggest challenge that we have had.
    So, at the micro level, convincing people that even though 
we have spent all this money on a deep tunnel, even though we 
have made progress, we have more progress we have to make. But 
I would be lying to you if I said that that is something we 
have been successful in. So it is a challenge.
    Mr. Funkhouser. I would say we have spent a lot of time and 
effort to try to do that, but, as Mayor Barrett said, it is a 
challenge. This is the kind of thing that is a cultural shift, 
it is an attitude shift, and it is going to take a long time. 
My predecessor, Mayor Barnes, launched a program, 10,000 Rain 
Gardens. It is going to take something like 260,000 rain 
gardens to solve our problem, but the message was out there 
that we needed to change what we are doing.
    My city, particularly, has put a lot of money and effort, 
and we have been criticized, by the way, for putting money into 
PR and so forth, but I call it education; trying to help people 
understand the consequences of all of our behavior.
    Mr. Leppert. Simply to build on my colleagues, as I 
mentioned in the testimony, we have also tried to use some 
incentives, especially when you get to the development side. 
The second thing is we have invested very aggressively, and I 
think with good success, in a website, a website that not only 
talks about what the city is doing, but also gives an awful lot 
of ideas on an individual basis of what people can do in this 
category of green in total. It is greendallas.net. It has 
received an awful lot of awards, but the basic premise of it is 
try to provide an awful lot of ideas, concepts, actions that 
can be taken at the individual level; and, again, we think that 
we have had pretty good success with it.
    Mr. Baird. I applaud you for that. I am very concerned 
about the health of our oceans and our waterways. We had a big 
controversy in Washington State about stormwater runoff and 
there was a proposal that you can't necessarily wash your car 
in your driveway, and the uproar over this was vast. It was, 
sort of, I have a divine right to wash my car in front of my 
house or to drain my radiator, etc., etc., regardless of the 
downstream consequences. And the irony of this is, if you ask 
people, do you like clean water? Do you like fishing? Do you 
think the oceans ought to be healthy? Yes. Ask them to change 
their behavior; well, that is an outrage. And I just encourage 
us to try to get responsibility back into this equation.
    I was in Israel about three or four weeks ago, and they 
have got a big drought happening there, and they have run an ad 
campaign where a beautiful, young Israeli girl's face in the ad 
campaign dries up and becomes a desiccated face like the soil 
gets cracks in it. They tell me that that ad is credited with a 
20 percent reduction in water consumption, which is equivalent 
of an entire desalinization plant. I just want us to add that 
to our repertoire of interventions.
    It is a whole lot cheaper to get people to quit throwing, 
for the record, into our system than it is to clean it up, and 
I applaud you with that and yield back the balance of my time.
    Thanks, Madam Chair.
    Ms. Edwards. Thank you.
    Mr. Cao?
    Mr. Cao. Thank you, Madam Chair. I just have a couple of 
questions I might have missed. Was there a question concerning 
cost benefit analysis of these green infrastructures that you 
all mentioned?
    Mr. Funkhouser. A major part of the $2.4 billion that we 
are going to spend is pilot programs designed to assess in 
scales large enough to matter, the 100-acre Marlboro project, 
for example, the cost benefit. We think it works. The EPA 
scientists think it works. But it depends on the geographic, 
the soil conditions, so on and so forth. So, I would say, right 
now what we are doing is we are taking a risk on whether or not 
it works, whether or not, doing the green part decreases the 
investment in the gray part; and we are going to build the 
data. We are kind of being, in some respects, we are one of the 
lead cities to try to do this, to take the risk to see what the 
cost benefit is.
    Mr. Cao. And I appreciate your efforts in trying to promote 
these green infrastructures. Was there a study that has been 
done, for example, to see whether or not these systems would 
work under severe conditions like floodings from a hurricane or 
something along that line? I come from New Orleans, and we do 
flood quite often. Has there been any studies that would 
somehow show that these infrastructures would hold up under 
those conditions?
    Mr. Funkhouser. In Kansas City, we have severe storms; we 
have tornadoes and we have lots of water at short periods of 
time. This is not going to work for that. We are pretty clear, 
the bulk of our investment, the vast majority of our investment 
is going to be big pipes and reservoirs. We are talking about 
if you take the green solution part from, say, 5 to 10 to 15 to 
20 percent, you are being pretty aggressive. What we are 
talking about with green solutions is small storms; we are not 
talking about the kinds of things that you are talking about, 
huge weather events.
    Mr. Cao. And I just have one last question. In your report 
you stated that rainwater is being collected underground in 
cisterns. I am just thinking about if we have all houses doing 
that, has there been a study that would see how much energy it 
would cost to pump the water from the cistern to use it in 
irrigation and in those other projects?
    Mr. Barrett. I don't know that any of us talked about 
cisterns. What we have in Milwaukee--and I think it sounds like 
Kansas City has it too--we have a very large deep tunnel that 
holds hundreds of millions of gallons of water, so it stays 
there or comes there during a heavy rainfall. Then it goes to 
the sewage plant, where we do the work at the sewage plant; 
then it gets released into Lake Michigan. So at least in my 
community we don't have any of the cisterns, underground 
cisterns.
    Mr. Cao. I think this is the one with Mr. Leppert.
    Mr. Leppert. I don't know of any study that would go at 
what you are talking about.
    Mr. Cao. Thank you very much.
    Ms. Edwards. Thank you.
    Mr. Boozman.
    Oh, I think I may have messed up. The Chair made a mistake. 
Mr. Hall.
    Mr. Hall. Thank you, Madam Chair.
    Mr. Boozman. We don't slight Mr. Hall.
    Mr. Hall. I will make it short.
    We in the Hudson Valley, I represent both the good side and 
the good side of the Hudson River, and we have had three 50-
year floods in the last five years. We don't make the news 
because it is not as calamitous as Cedar Rapids or Galveston or 
New Orleans and some other really major weather events, but 
there has been a lot of discussion in the five counties that I 
represent in the 19th Congressional District about how much of 
this is attributable to climate changes, the computer models 
showing more precipitation in the Northeast and stronger storms 
and more frequent storms; how much of it is due to increased 
development and more impervious surfaces.
    And I would say that all of our county and local and State 
officials are educating themselves and becoming experts on 
this, and we are working very well across political aisles. 
There are issues with how to pay for these things, but we are 
pretty much in agreement that we need to recreate more natural 
absorbent and retentive systems to prevent the fast runoff from 
those small to medium size storms. Obviously, if you get a 
nor'easter where it just rains like crazy for three days, which 
is what we tend to see as an extreme event so far in our part 
of the Country, you are going to overflow even those things.
    But congratulations and thank you for the work that you are 
all doing in your cities. Mayor Bloomberg, in New York City, 
which is just to the south of my district, has been talking 
about a sustainable New York plan. One of the components is 
green rooftops and similar water management, runoff management.
    You know, we had a decline in funding over the eight years 
of the previous administration, as Chairman Oberstar mentioned, 
and I was happy that this Committee took the first step in 
reporting out and getting through the full House the Water 
Quality Financing Act, and I too hope the Senate will take it 
up and pass it soon. Meanwhile, many of your communities and 
your cities are grappling with the CSOs and other water 
infrastructure needs, and it seems that the burden of complying 
with Federal mandates has been transferred to local property 
taxpayers and utility ratepayers.
    So the question, I guess, to each of you is can you speak 
about how the decline in funding for water infrastructure has 
impacted your efforts to improve and clean up CSOs and SSOs, 
but also how it has impacted your local ratepayers and 
taxpayers?
    Mr. Funkhouser. As I said, for us, the models that EPA has 
are of affordability, how much can you afford. We have worked 
and worked to try to get our CSO plan down to their highest 
levels, and we can only do that if we take it out more years 
than they normally allow cities to do. And, again, I would say 
again that my city is the largest city in the metropolitan 
area; we have decline. For example, in 1970, we had 40 percent 
of all the income. Today, my residents have 18 percent of all 
the income in the metropolitan area. We are a high-taxed 
separate city. The point was made earlier by Mr. Ehlers about 
cities ought to take care of themselves. However this shakes 
out, we are going to pay a whole lot of money, and we are right 
at the edge of what my citizens can afford.
    Mr. Barrett. If I can piggyback on that, the way I analyze 
it is we made great progress because of the Clean Water Act in 
1972, and we really have come a long way. The challenge, 
looking to the future, for a lot of cities--and I talking about 
cities in the Northeast or the Midwest--older cities where the 
pipes are literally over a 100 years old, and what has happened 
is those, at one point, were the centers of wealth. Many of 
those people have left and you have far more low income people 
who now live in cities, and the question that this Nation has 
to face is what are we going to do with--I call it the hidden 
infrastructure of this Country, and that is the issue that I 
face and I think many, many local representatives are concerned 
about, is how do we replace these sewers once they reach their 
life expectancy. That is where we want to have a partnership 
with the Federal Government.
    Mr. Hall. My time has expired.
    Ms. Edwards. Thank you, Mr. Hall.
    Mr. Hall. Thank you. Thank you, Madam Chair.
    Ms. Edwards. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    Recently, we had a hearing on wastewater treatment plants 
and how they could be more energy efficient, and they indicated 
that there was some low hanging fruit with the pumps that had 
been there for a long time, and those could be replaced. I 
guess what I would like to know is where do you all think the 
low hanging fruit is with stormwater runoff? What are you doing 
now that you weren't doing 10 years ago that has been very 
cost-effective, that if you walked around and you were in a 
different community, or maybe even your own community, that you 
saw that you could do that perhaps has been very cost-effective 
in trying to accomplish what we are trying to get done?
    The other question I am going to ask--let me do them both 
at the same time, in the interest of time--is Mr. Barrett 
mentioned the Federal water trust fund. I guess we have a 
gasoline, a highway trust fund that is paid for out of the tax 
on gasoline, tax on diesel, tires, and things like that. Where 
would you envision the money coming to fund the Federal water 
trust fund?
    Mr. Barrett. Well, that would obviously be something we 
open, and I don't have a magic wand answer for that. I know it 
is going to be an expensive program. I don't know if you would 
have a comparable tax on bottled water, just like you have a 
tax on gasoline. That would be something that would certainly 
generate a lot of conversation. But I think that there are ways 
to deal with it. But my point, again, as I said to Mr. Hall, is 
this is an issue that we have to grapple with, and we are going 
to do it. We are doing 95 percent of it now at the local level. 
Our concern is whether we can continue to do it. So I am open 
to suggestions, quite honestly.
    Mr. Leppert. In regard to part of your question, again, I 
think where some of the low hanging fruit--and probably to give 
an example is try to deal with it broadly--is in terms of the 
surfaces, of working with the various surfaces and trying to 
deal with those as you have got more urbanization. I think, 
again, that is a great opportunity and, as I mentioned in my 
testimony, trying to use that in as many different ways as we 
can. Now, clearly, some of that is going to have to be, as I 
mentioned, changing of standards, doing more research, those 
sorts of things, but I think that is a great opportunity; and, 
again, we have seen it in a couple of specific examples, as I 
related. My sense is there are great opportunities there, 
especially on the surface side.
    Mr. Funkhouser. I think, going forward, changing the 
behavior. I said before we were criticized for spending money 
on PR, but, actually, that, I think, the example that was given 
about Israel, I think that while I don't have evidence to 
support this, it seems to me that changing behavior is going to 
be a significantly cost-effective way to do this. And I think 
it is a generational thing. I think it is going to be easier to 
get younger folks as each generation comes along. I think those 
of us my age, our habits are pretty ingrained, but I think 
younger folks are going to get it.
    I would say this, finally, that I told a group I talked to 
yesterday, environmentalism is very big in my region right now, 
and I told this group of college students, I said, if you are 
an environmentalist, you are an urbanist. We need urban density 
again. We need to stop with the sprawl. Mayor Barrett and I 
have been talking about struggles with regard to transit. We 
need good cost-effective, multimodal transit which will help 
with development patterns and ultimately really have a 
significant impact on water quality.
    Mr. Boozman. Thank you very much. I agree. I think 
Congressman Baird really made a good point, and you followed 
upon that, with changing behavior, and I think we can do that 
without forcing behavior from Government. That is so important. 
One of my friends, the Congressman from Montana here, when he 
brushes his teeth, he will turn the water on, he will stick his 
brush in there, turn it off, brush. We in Arkansas, where we 
have a lot of water, the water runs, this and that, the shower 
is running, warming up at the same time. I grew up at a time 
where you just didn't leave the room if you didn't turn the 
light off, and the enforcer was not the governor, it was my 
dad, you know. So I think that is a very, very good point and 
yield back the balance of my time.
    Ms. Edwards. Thank you.
    Mr. Kagen?
    Mr. Kagen. Thank you, Madam Chairwoman, and thank you to 
our Chairman of the Transportation and Infrastructure 
Committee, Chairman Oberstar, for oftentimes bringing us a 
historical framework. But, really, what we are doing is 
repeating history, as human beings, over and over again. It was 
several centuries ago, and I am sure all of you studied it in 
school somewhere along the way, it was Samuel Taylor Coleridge 
who wrote The Rime of the Ancient Mariner. I am going to use 
just 30 seconds of my time to quote this old man of the sea, 
who might have been someone sitting behind me.
    [Laughter.]
    Mr. Kagen. And it reads, in part: ``Down dropt the breeze, 
the sails dropt down. 'Twas sad as sad could be; and we did 
speak only to break the silence of the sea! All in a hot and 
copper sky, the bloody Sun at noon. Right up above the mast did 
stand, no bigger than the Moon. Day after day, day after day, 
we stuck, nor breath nor motion; as idle as a painted ship upon 
a painted ocean. Water, water, every where, and all the boards 
did shrink; water, water every where, nor any drop to drink. 
The very deep did rot, oh Christ! That ever this should be! 
Yea, slimy things did crawl with legs upon the slimy sea.''
    We are repeating history as it may have been predicted by 
Samuel Taylor Coleridge.
    I have to express my great admiration not only for the 
Chairman, but also for Mayor Barrett for his service to our 
Nation and now to the city of Milwaukee, where I used to live 
just before we raised a family. I lived on the lake, Summit 
Avenue; not quite on the lake, above MacArthur Park, and I got 
to see that city transform its waterfront, and I got also to 
witness the Milwaukee River come back to life.
    As an allergy specialist, I used to study water quality and 
air quality in Northeast Wisconsin, and the best way to monitor 
water quality in any stream is its aquatic insect life; and I 
got to see the midges come back to life in the Milwaukee River, 
in large part because of your great efforts to protect the 
waterways.
    Water does not recognize county lines, and that is one of 
the problems that was approached by the State of Wisconsin, by 
the region of the Great Lakes and helped to bring about the 
Great Lakes Compact; and I would applaud the efforts of 
everyone everywhere in the Country to respect the watershed, to 
understand that, yes, this is our water, but we are really 
drinking 10,000-year-old water, and thank God they don't charge 
you on the age of the product that you are drinking.
    But it comes down to money and funding and also Federal 
regulation, and time will not permit the three of you today to 
respond to my question, but it has to do with what are the 
three greatest obstacles that you face with regard to Federal 
regulations? If we could just erase them or modify them in such 
a degree to make your life much easier, what would those three 
recommendations be?
    I have been hearing from my constituents that it happens to 
be unfunded mandates; that a small community without the tax 
base necessary to build a retention pond or water retention 
area, is forced to do it. So I would ask for those 
recommendations and I will pose that question to you briefly 
and add an editorial comment: Really, if you need money, you 
are coming to the wrong place. Ben Bernanke, at the Federal 
Reserve, can print you a trillion dollars if you need it.
    So, Mayor Barrett, if I ask you to come up with three 
responses. Not necessary right now, but just on the spot and 
the time remaining.
    Mr. Barrett. We would love to have a very close 
relationship with Ben Bernanke. That would be the first one. It 
really, I think, comes down to the partnership, because I have 
served at the Federal level, I have served at the State level, 
I have served at the local level. All of us want to have clean 
water. Every one of us wants to have clean water. It looks 
good. Every one of us wants to have our campaign commercials or 
brochures saying that we are fighting for a clean environment. 
It sells. The difficulty is who pays for it, and that is the 
big difficulty. It is always easy to say I am fighting for it 
and then let him pick up the tab.
    So I think that there has to be, more than anything, a 
recognition that this is something that has to be a joint 
effort by all of us at all units of government.
    Mr. Funkhouser. I would just point out, since I get a lot 
of my stormwater from Kansas, that it doesn't recognize State 
lines either.
    Mr. Leppert. And I would just concur with my colleagues.
    Mr. Kagen. Thank you all very much, and I will expect your 
responses not at government speed, but at the speed of 
business. How is that?
    Thank you very much. I yield back.
    Ms. Edwards. Thank you.
    Mr. Carnahan?
    Mr. Carnahan. Thank you, Madam Chair. Welcome to the panel. 
I apologize for getting here late, but I want to give a special 
welcome to Mayor Funkhouser, our friends from the other side of 
the State of Missouri. I had a great opportunity to visit with 
Councilwoman Marcason, who was in my office a few days ago, 
catch up with her. We share your pain in St. Louis, having, I 
am sad to say, some fine sewer infrastructure from the Abraham 
Lincoln Administration. So we look forward to partnering with 
you and also learning from some of the creative things that you 
have done.
    In St. Louis, we have some initiatives underway for green 
absorbent alleys, parking lots, roofs, but I can see that 
Kansas City is ahead of us on these matters. So, again, we look 
forward to working with you on this.
    I was really interested in the description of your efforts 
for the public-private collaborative and the many stakeholders 
that you have brought to the table, especially the public 
schools. I think that is brilliant to get those young people 
involved early on. But I wanted to ask about the question of 
cost. That obviously is what vexes policymakers and 
appropriators and leaders in communities, how to pay for this 
infrastructure.
    Tell me what your strategy is in terms of passing cost on 
to ratepayers using the State revolving funds; other ideas in 
terms of cost sharing and really addressing some of the cost 
involved with these transitions.
    Mr. Funkhouser. First of all, just a plaudit to 
Councilwoman Marcason. She has led the effort on this. She has 
been dubbed on our council the Sewer Queen and she has done a 
marvelous job.
    We have had a huge community involvement. In my testimony, 
attached is the report put out by our Wet Weather Solutions 
Panel. This is a big group of citizens, including a lot of 
experts, who have been meeting over about five years to develop 
our sort of overall strategy on this. Then, about a year and a 
half ago or a year ago, when we began to see the outlines of 
the bill that we were going to have to pay, we created a 
mayor's utility funding task force and we put together a group 
of people who would design the way that we were going to pay 
for this. We are going to do it primarily through rates, sewer 
rates; some of it will be straight-up sewer rates, some of it 
will be the impervious surface fee that we have. We had to try 
and design this in such a way that certain geographic areas in 
our city that are the lowest income would be not negatively 
impacted.
    So we don't have the complete package together yet. We 
considered various tax sources--property tax, sales tax, and so 
forth--found very little support for that. It is going to be 
almost entirely fees of one kind or another that are going to 
be balanced in such a way as to not unfairly impact the poorest 
in our city.
    Mr. Carnahan. Mayor, again, thank you for your leadership 
role, especially Councilwoman Marcason. She is very impressive, 
and we are glad someone is the queen of the sewers there in 
leading this effort. But thank you for being here in DC.
    Mr. Funkhouser. Thank you.
    Ms. Edwards. Thank you.
    The Chair recognizes our Chairman, Mr. Oberstar.
    Mr. Oberstar. Thank you, Madam Chair. I do want to 
intercede. I think Mr. Hare is yet to be recognized, but I have 
another transportation issue awaiting me in the conference 
room.
    I want to compliment the three mayors on their concerted 
effort on green solutions. The recommendations made and the 
practices adopted by Mayor Leppert, Mayor Funkhouser, Mayor 
Barrett all point to the direction in which Federal policy 
needs to move and needs to stimulate State policy as well.
    Your comment, Mayor Leppert, about pervious concrete, more 
research needed, perhaps by the National Institute of Standards 
and Technology, I wish we had that testimony about six weeks 
ago; we would have included it in our bill. But we can still do 
that. The bill has passed the House. We can still do that with 
the conference support, if the Senate is ever able to move 
anything other than the prayer. We will do that.
    You also talked about North Central Texas Council of 
Governments and an integrated stormwater management guidance. I 
would like to have a copy of that document.
    Mr. Leppert. Sure.
    Mr. Oberstar. I think that is a valuable concept, resource. 
You are saying few developers are using it. We ought to find 
ways to inspire them to do that, and there are ways that we can 
do that in Federal law.
    Mr. Leppert. I will make sure that you get that. Again, I 
think it is an example of a theme that you have heard--although 
you are visiting with given municipalities today, the reality 
of it is a lot of these issues that we are dealing with are 
clearly ones that go much more broadly to your Committee even 
than what is being addressed by this Subcommittee--is that we 
are dealing with regional issues, and the interaction between 
counties, between other cities, other entities becomes 
paramount in trying to deal with these issues.
    Mr. Oberstar. Mayor Funkhouser, your green solutions, 
overflow control plan, your Wet Weather Community Panel, how 
did you come about to establish this Wet Weather Community 
Panel?
    Mr. Funkhouser. That was done by my predecessor, Mayor 
Barnes, and it was done in 2003, when we first began to see 
that we were going to have to deal with the combined sewer 
program. Again, there are a lot of people in my community who 
are very concerned about the environment, and have been. So as 
soon as the outlines, so to speak, of the sewer problem began 
to be apparent to the community, there were people who were 
concerned about climate change, concerned about the 
environment, and took it upon themselves, came to the mayor, 
said we want to put something together to look at how to use 
this in a transformational way to improve property values and 
protect the environment, as well as deal with the sewage 
overflow.
    I can't take any credit for that, that was well under way 
by the time I came into office.
    Mr. Oberstar. Well, I have championed for many years non-
point source legislation requiring management by watershed and 
requiring the practitioners--farmers individually, the State 
Departments of Natural Resources, Fish and Wildlife Service, a 
host of other Federal agencies--to combine efforts, develop a 
management plan for the watershed, and previous administrations 
have resisted it. We have just not gotten anywhere with it. 
Some more far right-thinking farm group have opposed it as 
Federal control. I am saying, no, you design the plan, you tell 
us how you want to manage it; we will support it. But if you 
don't, someone will, because we must. But we also must have 
urban runoff plans, and they can't all be widening the stream, 
creating more capacity to flow the water, polluted as it is, to 
receiving streams and lakes and estuaries.
    Now, Mayor Barrett, you have had some experience with the 
cryptosporidium problem in Lake Michigan. It turned out it was 
not from runoff, it was from the inadequacy of the wastewater 
treatment plan itself, and needed more funds to upgrade the 
treatment. But you have done some remarkable things: rain 
gardens, green roofs, neighborhood-wide downspout 
disconnection.
    All my youthful years we had a rain barrel at home. We 
saved that water and put it on our garden out back. It was a 
big garden, 200 feet by 50 feet. We grew everything and fed the 
family all during the winter. That rainwater was there in the 
barrel when it didn't come down from the skies. That makes such 
good sense.
    And your point about tunnels, you can't hold a picnic or a 
tailgate party in a deep tunnel, that is for sure. My 
predecessor, John Blatnik, once said we ought to require all 
sewer and water pipes be built above ground so people could 
stumble into them and see that we are really doing something 
for them. Now, that was said with tongue in cheek and a good 
sense of humor, but you are right about it. We bury these 
contributions to urban improvements and people don't see them 
until they break.
    Mr. Barrett. That is what makes it much more difficult to 
fix them, because people see a road or a pothole, and they want 
that fixed immediately. But you have a street collapse because 
the pipe broke; that is obviously much more expensive to fix 
than a pothole.
    Mr. Oberstar. But all of these are contributions to a new 
way of thinking about cleaning up our wastewater systems, 
improving our wastewater treatment, combine storm and sanitary 
sewer overflow, and perhaps the practices that you are talking 
about are those that we should incorporate into our loan 
programs or grant programs or Federal assistance as a condition 
of receiving those funds. Employ these practices that reduce 
the runoff so you have less to treat in the end.
    I will conclude by complimenting Mr. Kagen, our poet 
laureate. Coleridge went on to describe the oceans as dark, 
heaving, mysterious, and endless. We know they are dark. 
Heaving they certainly are. We are unlocking the mystery of the 
ocean. But endless they are not. Nor is our supply of fresh 
water. All we ever had or ever will have is with us today. Of 
the 42 trillion gallons of moisture that passes over the 
Continental United States everyday, only 675 billion gallons of 
that everyday is available to us in moisture that reaches and 
remains on the ground. That is what we have to preserve and 
protect.
    Thank you very much for your contributions, mayors.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Kagen, I had to reach back to my lit class at Wake 
Forest University for that moment.
    We thank you very much, to the panel. You are dismissed.
    We will recess and then reconvene after our votes, which 
will probably be at noon. Until then, the Subcommittee stands 
in recess.
    [Recess.]

    A F T E R N O O N S E S S I O N
    [12:18 p.m.]
    Ms. Edwards. The Subcommittee will come back to order.
    Will the witnesses from panel two take your seats?
    The Ranking Member, Mr. Boozman, has another markup right 
now, but he will be returning shortly. But we will go ahead and 
start with our second panel of witnesses, comprising and 
welcome EPA's Acting Assistant Administrator for Water, Michael 
Shapiro. We will then hear from Dr. Robert Traver from 
Villanova University. Next, Mr. Howard Neukrug from 
Philadelphia's Water Department will testify. He is also 
testifying on behalf of the National Association for Clean 
Water Agencies. Then Mr. Timothy Richards, from Charlotte, 
North Carolina will testify next. Mr. Richards is the Deputy 
City Engineer for Charlotte and will also be testifying on 
behalf of the National Association for Flood and Stormwater 
Management Agencies. I love doing the double-duty. Then we will 
hear from Ms. Mary Wahl. Ms. Wahl is Director of the Office of 
Watersheds for the City of Portland, Oregon. And our final 
witness on our second panel is Ms. Nancy Stoner from the 
Natural Resources Defense Council.
    Ms. Stoner, you have testified in front of this Committee 
before, and we welcome you back.
    Your full statements will be placed into the record and we 
ask that you try to limit your testimony to about five minutes 
as a courtesy to other witnesses and so that we can get on with 
questioning. Again, we will proceed in the order in which the 
witnesses were listed in the beginning.
    Mr. Shapiro.

  TESTIMONY OF MIKE SHAPIRO, ACTING ASSISTANT ADMINISTRATOR, 
OFFICE OF WATER, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY, 
     WASHINGTON, D.C.; ROBERT TRAVER, PROFESSOR, CIVIL AND 
  ENVIRONMENTAL ENGINEERING, VILLANOVA UNIVERSITY, VILLANOVA, 
    PENNSYLVANIA; HOWARD NEUKRUG, P.E., DIRECTOR, OFFICE OF 
   WATERSHEDS, PHILADELPHIA WATER DEPARTMENT, PHILADELPHIA, 
   PENNSYLVANIA; TIMOTHY RICHARDS, P.E., NAFSMA DIRECTOR AND 
   STORMWATER COMMITTEE CHAIR, DEPUTY CITY ENGINEER, CITY OF 
   CHARLOTTE, NORTH CAROLINA; MARY WAHL, DIRECTOR, OFFICE OF 
    WATERSHEDS, PORTLAND BUREAU OF ENVIRONMENTAL SERVICES, 
 PORTLAND, OREGON; AND NANCY STONER, CO-DIRECTOR, CLEAN WATER 
  PROGRAM, NATURAL RESOURCES DEFENSE COUNCIL, WASHINGTON, DC.

    Mr. Shapiro. Madam Chair and Members of the Subcommittee, I 
appreciate the opportunity to provide EPA's perspectives on the 
important issues associated with urban stormwater and green 
infrastructure.
    Stormwater pollution, as we have heard, is one of our 
Nation's most challenging water quality problems. Rainwater and 
snowmelt run off of our urban and suburban landscape, picking 
up fertilizers, soil and sediments, pathogens and many other 
pollutants on the way to our rivers, lakes, and coastal waters. 
The impermeable surfaces and traditional drainage designs also 
result in increased stormwater volume and peak flow rates.
    Small tributaries and even larger streams cannot 
accommodate the increased water volume and flow, leading to 
eroded streambanks, streams choked with sediment, destroyed 
aquatic life, and increased flooding.
    In addition to these problems, many older cities, including 
many of the largest cities in the U.S., have combined sewage 
and stormwater pipes which periodically overflow due to 
precipitation events.
    The 1987 amendments to the Clean Water Act required EPA to 
establish a program to regulate stormwater. To date, 
approximately 7,000 municipal permittees and hundreds of 
thousands of industrial permittees have been regulated.
    EPA published its combined sewer overflow policy in 1994, 
requiring communities to develop long-term control plans to 
address their combined sewer overflows. Our initial 
implementation of these programs focused on adding on to the 
existing gray infrastructure, one that had been designed to 
move stormwater as rapidly as possible off of the landscape and 
onto our surface waters.
    In recent years, we have increasingly recognized the 
multiple benefits that green infrastructure approaches offer 
when integrated into stormwater and combined sewer overflow 
management programs. A green infrastructure provides multiple 
beneficial outcomes, including improved water quality and 
stream condition, reduced flooding, recharge of groundwater and 
surface water supplies, reduced urban temperatures and energy 
demand, carbon sequestration, improved aesthetics, and 
additional recreational and wildlife values. Moreover, case 
studies published by EPA demonstrate that these approaches 
frequently cost less than conventional approaches.
    Two years ago, EPA embarked on an enhanced effort to 
promote green infrastructure through all of our water programs, 
in conjunction with several partners, including American 
Rivers, the National Association of Clean Water Agencies, the 
Natural Resources Defense Council, the Low Impact Development 
Center, and the Association of State and Interstate Water 
Pollution Control Administrators.
    In January of 2008, this collaborative effort produced the 
Green Infrastructure Action Strategy. The Strategy is an action 
plan of several dozen activities and initiatives to overcome 
barriers to green infrastructure implementation. Since then, we 
have moved forward with implementing many aspects of this 
strategy together with our partners.
    In order to assist the stormwater management community, we 
have provided a variety of outreach and assistance activities: 
training, workshops, webcasts. And we have published documents 
on critical topics necessary for the design and selection of 
green infrastructure approaches. We are working with a variety 
of sectors, such as Federal highways, and modifying and 
developing models to make design work and life cycle costing 
analyses easier. Much of this material is now available on our 
website and more will be coming.
    In August 2007, our permits and enforcement programs issued 
a joint memo indicating that green infrastructure approaches 
are consistent with national pollutant discharge elimination 
system requirements and should be encouraged in CSO and 
stormwater programs. We have also clarified that our 
underground injection control permitting requirements do not 
generally apply to most green infrastructure approaches.
    We have increased our emphasis on outreach to State and EPA 
regulatory programs to assist them in specific permitting and 
enforcement cases, and also to provide general guidance on 
incorporating green infrastructure into their programs. We have 
developed a helpful series of guidebooks on managing wet 
weather with green infrastructure for municipal utilities and 
their stormwater management officials, and that series of 
guidebooks to date has addressed financing, retrofitting green 
infrastructure, green streets, and water harvesting policies. 
Again, more documents will be on the way.
    We are trying to provide as much information as possible to 
allow municipal officials to select green infrastructure 
approaches with confidence that they will work.
    The American Recovery and Reinvestment Act set-aside for 
green projects through the Clean Water State Revolving Fund 
provides an outstanding opportunity to accelerate the 
integration of green infrastructure into our stormwater 
management programs. EPA is working with States to ensure that 
projects funded through this set-aside represent good examples 
of green infrastructure approaches.
    There are also unanswered questions. We understand 
performance of green infrastructure practices very well in some 
cases, reasonably well in others. However, we need better tools 
for estimating collective performance at regional scales. And 
there are still questions about long-term performance of some 
practices under various maintenance regimes. There are 
questions regarding the maintenance of green infrastructure 
projects which are frequently located on private property.
    EPA and our national local partners are helping to change 
the way our Nation views and manages stormwater. We look 
forward to working with the Committee and our partners in order 
to achieve mutual water quality goals, as well as to promote 
more livable communities. Thank you.
    Ms. Edwards. Thank you, Mr. Shapiro.
    Dr. Traver?
    Mr. Traver. Good morning. Or I should say good afternoon, 
Madam Chair and Members of the Committee. My name is Rob 
Traver. I am a Professor of Civil Engineering at Villanova 
University, and I was on the NRC Committee on reducing 
stormwater discharge contributions to water pollution.
    To protect our waters, our expectations of stormwater 
management have recently shifted away from a purely flood 
control perspective to one addressing water quantity, quality, 
erosion, stream bank protection. In addition thereto, of 
course, our original flood control mandate. We have moved from 
detention strategies to natural control measures, addressing 
both the frequent, smaller storms and the big ones.
    If you take a look up here--I was asked to show a few 
pictures of some green infrastructure--on the upper left is a 
319 project of Jordan Cove up in Connecticut. Notice the houses 
are closer to the street to cut down the amount of the 
impervious surface, and the traffic island is a treatment 
mechanism. On the right is a retrofit of a street in Seattle. 
The center one at the top is basically showing how we can slip 
these in to our infrastructure, showing this is a bioswale 
between a pavement and a street.
    The bottom three practices are all projects at Villanova 
University: a green roof paid for by the University, and a 
pervious concrete, and a bioinfiltration site paid through the 
319 program.
    To me, I look at these as engineered approaches that are 
really targeted to paved areas to first reduce and then employ 
nature to treat the stormwater runoff.
    Next slide, please.
    [Slide.]
    My last slide is just a picture a little bit more in depth 
of our bioinfiltration site.
    I have heard a lot of talk about maintenance. We don't find 
that to be a problem on this particular site. It was designed 
and built in 2001 for about one inch of runoff; it takes about 
80 to 90 percent of the rainfall each year, infiltrating it 
through the soil, through a chemical and biologically active 
matrix to provide treatment. We have three or four overflows a 
year, and we expected that, and, really, we have seen no change 
in performance over the last seven or eight years on this 
particular site. And my belief is if we had built this as part 
of the original construction, instead of a retrofit, it would 
have paid for itself, as it requires less piping and culverts 
than a traditional design.
    Our NRC report does recognize some barriers. It recommends 
a systems approach tailored to the watershed and implemented at 
the municipal level, incorporating land use and all stressors. 
A primary barrier to us is the separation of stormwater 
quantity and quality that has occurred in both the regulatory 
and scientific arenas. Standards should be based on science, 
and that includes the role of flow as a pollutant. The real or 
perceived inability to not address and not target flow as a 
pollutant simply does not allow us to meet the full goals of 
the Clean Water Act.
    Another barrier that we have actually already heard about 
today is sometimes some of the older laws are in conflict with 
the newer laws trying to implement green infrastructure. The 
simplest example are ordinances that mandate required curbing 
or oversized parking areas. A more insidious problem is newer 
design codes that underestimate the performance of green 
infrastructures requiring very large footprints and pushing 
builders and developers to more expensive and less sustainable 
solutions.
    Another barrier that we have is more in the technology. 
Implementation has proceeded faster than our ability to predict 
the outcomes of the many processes involved. We know that they 
work and they are tremendously more effective than what we did 
in the past, but we aren't able yet to predict a unique outcome 
from a unique storm on these sites. We feel that a broad-based 
research effort is needed to develop this ability and then 
apply it to the larger watershed.
    Because of the inherent variability of the natural 
processes, we really feel this research needs to include 
laboratory, field, model development, and long-term 
continuously monitored sites, so we understand more about the 
design capabilities, the maintenance, the longevity, and to 
really lower the cost to the homeowner and community and avoid 
wasting millions of dollars on ineffective practices like we 
have done in the past.
    The perception barrier is the easiest one. At Villanova, we 
have had thousands of people come to visit our research sites, 
and seeing that a rain garden or a stormwater wetlands or 
pervious concrete site is a good neighbor, there is no swamp 
monster coming out of them, there are no mosquitos, 
maintenance, talking about those issues with our facilities 
staff, learning that we can actually reduce the number of 
people we have mowing our sites by simply ceasing to mow a 
retention basin are all positive answers that we put across. 
And we feel, or I feel, I should say, that this concept could 
be exported to our township buildings, supermarkets, or school 
districts to engage the public in these particular sites. We 
really looked at redevelopment as an opportunity to incorporate 
green infrastructure in areas that it never existed.
    And from an engineering perspective, in summary, green 
infrastructure is really the most cost-effective and 
sustainable approach that we have in mitigating the effects of 
urban stormwater and to reinduce the hydrologic processes lost 
during urbanization.
    Thank you for the opportunity to testify.
    Ms. Edwards. Thank you, Dr. Traver.
    Mr. Neukrug, I apologize if I have completely botched your 
name.
    Mr. Neukrug. No, you did not; you did very well. Thank you 
very much.
    Good afternoon, Madam Chair and Members of the 
Subcommittee. I am Howard Neukrug, Director of the Office of 
Watersheds for the City of Philadelphia Water Department. It is 
an honor to testify today on behalf of my utility, the city of 
Philadelphia, and the National Association of Clean Water 
Agencies.
    Our mayor, Michael Nutter, is committed to making 
Philadelphia the greenest city in America. He is about to 
launch an ambitious plan which will make Philadelphia 
sustainable through the 21st century and beyond. We fully 
expect that this effort will actually strengthen our economy, 
while reducing our environmental footprint.
    The pictures that are shown on the screens on the sides 
represent a future vision for Philadelphia. It is a vision that 
is endorsed and supported by the mayor and the Philadelphia 
Water Department. From the perspective of the city, the city 
responsible for meeting Clean Water Act requirements, the 
mayor's vision is energizing. But to make this vision reality, 
we must change how we think about the management of urban 
stormwater runoff. In the context of sustainable cities, our 
primary focus must shift from controlling discharges into our 
rivers and streams to stopping the rainwater from becoming a 
pollutant in the first place.
    We believe we can do this by changing the relationship 
between land and water from an aggressive 19th century approach 
of building pipes and other barriers to one where we welcome 
the rainwater as a local asset. Instead of building new sewer 
pipes, we can plant trees and rain gardens and other 
aboveground amenities that provide multiple benefits of 
economy, sense of place, ecology, and the environment.
    Green cities can address water resource and quality 
concerns, while also tackling the sustainability goals of air 
quality, waste produce reuse, urban heat island mitigation, 
carbon sequestration, energy conservation, environmental 
justice, and quality of urban life.
    The U.S. EPA has been a great supporter of these concepts, 
as has environmental organizations such as NRDC and American 
Rivers and many Members of Congress, but we have a problem. 
While many at the highest levels of the EPA and elsewhere 
support the green city clean water initiatives, EPA has yet to 
find the means to incorporate these ideas into its regulatory 
policy and enforcement framework.
    What we need is a 21st century sustainable city's 
interpretation of the Clean Water Act. Without this, all the 
good wishes from our many friends at the U.S. EPA, State 
regulators, mayors, governors, Congress, environmental advocacy 
groups, and the public may have been wasted. We will remain 
burdened with doubt about the future of our programs by 
sometimes myopic interpretation of how we are to achieve the 
goals of the Clean Water Act.
    Simply put, expanding the traditional systems of gray 
infrastructure is not a sustainable approach. Yesterday's sewer 
systems are not designed to handle today's challenges, nor are 
they equipped to mimic natural stormwater management principles 
essential for restoring our rivers and streams to not just 
fishable and swimmable, but to accessible, safe, and 
attractive. And isn't this what this is all about, caring for 
our streams so that they are clean and thriving and beautiful 
again?
    NACWA has been working in support of this effort for a more 
holistic approach that embraces these technologies to help 
solve our water quality challenges. NACWA has also recently 
founded the Clean Water America Alliance, of which I am a board 
member. The Alliance seeks to promote an integrated national 
water policy that advances environmental, sustainable 
communities.
    In summary, I am here today on behalf of the city of 
Philadelphia, its water utility, and NACWA to call on Congress 
to recognize that there has been a fundamental shift in how we 
manage and view the urban landscape, and support us, the water 
sector, in our efforts to implement sustainable solutions to 
stormwater management.
    Help us direct EPA to revise the CSO policy to allow and 
encourage green, sustainable approaches to overflow controls. 
And help us by supporting legislation which establishes green 
infrastructure pilot programs, creating set-asides in 
legislation such transportation bill, and finding a long-term 
sustainable funding source for clean water infrastructure 
through a clean water trust fund.
    In conclusion, the opportunities and the benefits of green 
stormwater programs are just too great and the potential for 
failure and an unsustainable future for our urban centers is 
just too unacceptable for us to fail. We need your help to 
frame policy and enforcement strategies that meet the goals of 
the Clean Water Act through implementation of green and 
sustainable cities.
    Madam Chair, we look forward to working with you and other 
Members of Congress on accomplishing these important goals, and 
thank you very much. I would be happy to answer questions.
    Ms. Edwards. Thank you, Mr. Neukrug.
    Mr. Richards?
    Mr. Richards. Madam Chair and Committee Members, thank you 
for the invitation to speak on green infrastructure and low 
impact design approaches. I represent NAFSMA, the National 
Association of Flood and Stormwater Management Agencies. We are 
a 30-year-old national organization representing approximately 
100 local and State jurisdictions. We represent mostly large 
urban areas, focusing on stormwater and floodplain management 
and flood safety. We often work closely with EPA, Corps of 
Engineers, and FEMA on water policies.
    First, we offer these general comments. NAFSMA supports the 
Clean Water Act and tools like the NPDES Permit Program. Our 
members primarily deal with non-point source pollution and 
stormwater. Today, I will not be addressing wastewater, 
industrial, or combined sewer systems, which have their own set 
of limitations and issues.
    We agree with the EPA description of green infrastructure 
that it involves systems that mimic natural processes. It 
involves infiltration and evapor-transportation and recycling 
of runoff; it uses tools like green roofs, porous pavements, 
and rain gardens, vegetated swales, and that they provide a 
variety of environmental benefits. But most importantly, we 
agree that it accomplishes this as a component of a holistic 
stormwater management system.
    For testimony purposes, we consider a low impact design or 
LID to be a component of green infrastructure and may use the 
terms interchangeably, depending on the context.
    We encourage green infrastructure where conditions are 
suitable. However, we do not believe it is a sole solution. We 
offer, as requested, a few barriers to implementing green 
infrastructure.
    Number one, green infrastructure is more appropriate for 
some parts of the Country than others. Some areas have soils 
that simply do not infiltrate well, a key component of green 
infrastructure. With limited infiltration, more conventional 
detention techniques may provide additional protection for 
sensitive streambanks by lowering the peak runoff rates.
    Number two, green infrastructure can be problematic for 
higher density development. We have experienced that in ultra 
urban density land is at a premium, if available at all, for 
areas of vegetation and infiltration. It may be more viable to 
allow options for higher density development to participate in 
funding other techniques and measures like extended dry 
detention basins further down in the watershed.
    Number three, the development marketplace in some areas has 
not shown broad support of green infrastructure. Many green 
infrastructure measures are natural, requiring ongoing routine 
maintenance by private property owners. Not all markets 
appreciate the benefit of nature up close and personal. Many 
markets want a cleaner, more well defined streetscape and lawn 
area that offers close to maintenance-free assurance.
    Number four, green infrastructure could mean a huge 
increase in the number of measures being constructed, operated, 
and maintained in a city. Green infrastructure seeks to mimic 
predeveloped hydrology. This means collection and treatment of 
runoff in relatively small amounts close to where it starts 
becoming runoff. Studies have shown that this results often in 
large increases in a number of these small measures, and 
maintaining or providing administration for their maintenance 
could become a large financial burden.
    Number five, this financial burden could be much larger 
with green infrastructure, as compared to conventional 
management measures. For instance, we have a study from Denver, 
Colorado that showed total cost for construction, 
administration, maintenance, and eventual rehabilitation of a 
green site to cost over six times the cost of the conventional 
management technique. Now, this was for a 100-acre multifamily 
development, resulting in, for over 50 years, $38 million 
versus $6 million.
    That said, we also agree that there are valid studies that 
showed cost savings using green infrastructure. However, we 
want to just recognize that it depends on the sites and it also 
depends on whether you are including costs for addressing 
runoff volumes that produce street, business, and home 
flooding.
    Number six, LID needs to complement and support smart 
growth concepts. Recent draft stormwater permits have moved 
towards strong encouragement or even mandating LID through the 
use of limiting impervious areas. This can actually increase 
sprawl.
    So we offer some recommendations for overcoming these 
barriers.
    Number one, Congress should encourage, rather than mandate, 
green infrastructure when and where it is feasible and 
economically sustainable. This direction from the Federal 
Government will go a long way in promoting what EPA has stated 
as their goal of using an adaptive management philosophy of 
managing stormwater. It is this adaptive management process 
that will enable us to scientifically and procedurally remove 
ineffective methods that may be too costly or infeasible.
    Number two, increase funding for research and science for 
stormwater management. We need to be able to fund pilot 
programs and extensive monitoring at both the site level and 
the watershed level to determine the effectiveness of different 
techniques. Federally-funded grants and support programs are 
needed to supplement what many of our members are trying to do 
on their own already.
    And, number three, continue to educate and involve leaders, 
municipal officials, developers, and the public on stormwater 
management issues. One of the useful best management practices 
for protecting and improving water quality is public education 
and involvement. Each person, whether property owner or 
regulator, developer or policymaker, has a role in making the 
best decision.
    Again, Madam Chair and Committee Members, thank you for 
your time.
    Ms. Edwards. Thank you, Mr. Richards.
    Ms. Wahl?
    Ms. Wahl. Madam Chair, Members of the Committee, thank you 
for the chance to speak to you today on this subject. I am Mary 
Wahl. I manage watershed services for the city of Portland, 
Oregon.
    First, to your primary question about whether these green 
infrastructure facilities work and there is utility for them in 
the urban area. The answer is yes, absolutely they do work. 
They work for the environment, clearly, but also for the 
economy and the ratepayers as well. They don't work everywhere, 
but they do work, and we are expanding their use across the 
city.
    Two examples I have on the boards down here. One is the 
pipe. The one on the right is the pipe. We are one of the 
cities building the 10-mile tunnel that is 100 feet 
underground, big enough to be a subway. We look at that as an 
important part of our Clean Water Act response, but part of the 
past. We are not planning on that response anymore. For the 
future, we plan to rely on the green infrastructure to manage 
stormwater from development and infill. As more and more people 
move in, if there is more stormwater, we will use the 
facilities on the right.
    An example of how much we are relying on those and why is 
that in one 2.5 square mile area of Portland, we are putting 
600 of these facilities, primarily the curb extensions that you 
see on the bottom picture of the board over here. Clearly, 
those are critical for the environmental pieces, but 
environment alone wouldn't have brought the funds to put 600 of 
these in one area. That resulted from a rigorous analysis by 
the engineers of alternatives and costs. The original pipe 
design for that 2.5 square foot mile area was $144 million. The 
current design with green--see what the green can do--and then 
do the rest of the work with gray is $86 million. So the 
difference is $58 million by doing the green first and then the 
gray.
    So we are expanding these where they work.
    I will skip right to some of the solutions. You have heard 
some great ones today. I would like to mention just a few 
others.
    The first one is implement green infrastructure when the 
Federal Government funds roads, buildings, and development. If 
you want to know where these work and under what conditions, 
the way to do that is to put them on the ground. That is what 
worked for us, and I think it can work just as well for the 
Federal Government as well.
    The second is to capitalize green infrastructure. The pipes 
are capitalized. People look at trees and know that those are 
important assets, but, because they aren't described as an 
asset, they don't get the same kind of funding. So, when the 
call comes down, the call goes to pipes, typically, because we 
don't have the ability to capitalize these.
    The third one that I would mention is to change the 
regulatory framework. Two parts of that. Cities like Portland 
and Philadelphia and others across the Country that are doing 
these shouldn't get a regulatory hall pass, but the reverse is 
often the case, where pipes are favored rather than the green 
infrastructure; and it should at least be neutral, so that if 
the green infrastructure can work, then that gets the 
regulatory compliance blessing, if you will.
    The second one, and this might be the most important thing 
I say to you today, that is, that the water law needs to 
change. Until now it has been focused primarily on water 
quality, and that is absolutely critical. It is what people 
think about when they think about all of the water work we do. 
But the watershed science requires us to expand that focus to 
hydrology. We need to worry about where the water is, how much 
of it is, what time of the year. Water needs to be in the 
watershed at the right time of the year if we are going to have 
a chance to restore these watersheds. Green infrastructure 
really speaks to hydrology or flow, and that needs to get 
recognized in the law as well.
    One other point I would like to make is that incentives are 
important. We have had EPA Wet Weather Grants. Over the past 
several years they have helped immensely to subsidize, if you 
will, some of the innovations and these green infrastructure 
demonstration projects. A lot of this ends up on private 
property. We need the grants to help subsidize that and get it 
started.
    The other is that--and I will just mention this very 
quickly. The first billion gallons a year of water off our CSO 
system comes from people disconnecting their downspouts right 
off the roof, and it goes onto the ground instead of into the 
pipe. That is a billion gallons a year just for that. It costs 
us $53 a house to get the 50,000 houses in Portland to take 
that water off the sewer system and put it on their yard. So 
incentives can make a huge difference.
    I will stop there. I, like several other of the Members who 
have mentioned this, would appreciate a chance to help you work 
on the solutions as follow-up. I appreciate the chance to be 
here. Thank you.
    Ms. Edwards. Thank you.
    Ms. Stoner?
    Ms. Stoner. Thank you. Good afternoon, Madam Chair and 
Members of the Subcommittee. It is a pleasure to appear before 
you today on behalf of the Natural Resources Defense Council to 
discuss the role of green infrastructure in revitalizing our 
waterways and our cities.
    First, I want to thank you for the Committee's leadership 
already on these issues and the House's leadership on both the 
economic recovery legislation and the reauthorization of the 
Clean Water State Revolving Fund. We appreciate the recognition 
that green infrastructure got in both of those pieces of 
legislation already this year.
    Interest in green infrastructure is skyrocketing among 
Members of Congress, the sewage treatment industry, State and 
local governments, and the public. I think you can tell that 
from the witnesses you are hearing from today. This is an 
opportune moment to discuss the barriers to full, effective 
implementation of green infrastructure as an integral part of 
water and wastewater resource management in communities across 
the Country.
    My written testimony discusses a number of benefits of 
green infrastructure. In my oral remarks I will focus on just a 
few.
    First, investment in green infrastructure creates jobs. 
Designing, installing, and maintaining green infrastructure 
creates new jobs for architects, designers, engineers, 
construction workers, plumbers, maintenance workers, 
landscapers, and many more. For example, a recent study by the 
D.C. Office of Planning found that investment of $900 million 
in retrofitting green roofs in D.C. would produce more than 
17,000 full-time annual jobs. Those are real jobs that we need 
in our economy today.
    Second, as many of the witnesses have indicated, investment 
in green infrastructure saves money. It saves developers money 
associated with paving, putting in curb and gutter, building 
piping systems, and digging centralized stormwater ponds. These 
types of developments also sell faster and bring in higher 
prices. EPA issued a report last year quantifying those cost 
savings for developers. It also requires lower operations and 
maintenance expenses, such as energy cost for pumping water 
around and cost of treatment during wet weather, when compared 
with storage tunnels and other hard infrastructure solutions.
    Third, I want to tell you about a new study that NRDC has 
conducted in cooperation with leading academics in California 
examining the potential for use of green infrastructure 
practices to augment water supplies and reduce energy use in 
California. Our analysis revealed that through implementing 
green infrastructure practices at new and redeveloped 
residential and commercial properties, 400,000-acre feet of 
water could be saved, or enough water for about 400,000 
families to meet their annual water supply needs. This water is 
desperately needed in California right now, and some of the 
water needed can be obtained through using green 
infrastructure.
    The California study also looked at using green 
infrastructure to save energy. In areas such as Southern 
California that are dependent on distant or energy-intensive 
sources of water, practices that augment local water sources 
such as groundwater or captured rainwater can be used to reduce 
energy use and its attendant greenhouse gas emissions. NRDC's 
study found that the 400,000-acre feet of water I mentioned 
corresponds with potential savings of over 1 million megawatt 
hours of electricity, avoiding the release of over 340,000 
metric tons of carbon dioxide per year, which is the same 
amount of greenhouse gas reduction that is achieved by taking 
more than 60,000 cars off the roadways.
    So even though we are primarily talking about water 
pollution today, it is really important to keep in mind these 
other benefits of green infrastructure.
    Given all of the benefits, lots of communities are 
interested in investing in green infrastructure and an 
increasing number are doing so despite the barriers. But there 
are several major reasons why others haven't done so. Today I 
will highlight three.
    Lack of familiarity with green infrastructure approaches. 
While knowledge of green infrastructure is spreading among 
utilities, States, cities, citizen groups, and many others, 
lots of people have never heard of it and many people, even 
those directly involved in infrastructure decisions, have 
misconceptions about it. So Congress can assist that effort by 
creating a green infrastructure program at EPA to provide 
technical and compliance assistance, and also set up regional 
centers of excellence to work with governmental authorities to 
fill these information and communication gaps.
    Second, there is a lack of effective integration of green 
infrastructure into the regulatory scheme. Several witnesses 
today have mentioned that. It should be the centerpiece of 
Clean Water Act permitting for stormwater and for combined 
sewer systems. Now it is not only not required, it is often 
actively discouraged by decision-makers. It should be the 
principal strategy employed.
    And, third, technical and information needs. Green 
infrastructure approaches have been demonstrated to be 
effective at the site and development level, but monitoring 
data on a watershed or sewershed level is very sparse, and that 
is one of the barriers that prevents this technology from being 
recognized by regulators. Congress should fund research and 
demonstration projects to fill these knowledge gaps.
    Thank you.
    Ms. Edwards. Thank you, and thank you to all our panel.
    I sit here with great interest and intrigue. I actually cut 
my political teeth doing work around water, impervious surfaces 
in my local community, and I want to share this with you 
because I think it is one of the challenges that we have to 
recognize. In my community, which is just outside of 
Washington, D.C., we had a little road, it is about a two-mile 
road, and we have spent years in our community really battling 
with our local transportation authorities, with our local 
environmental authorities about how to redo this road. At first 
the local authorities, because of traffic problems, wanted to 
widen the road to four lanes; it was a two-lane road, two-lane 
winding road.
    So after many years of this Congresswoman standing on the 
side of the road with signs and protesting and testifying, at 
last the planning authorities heard from the community and 
said, okay, we will try to make a two-lane road. The problem 
with that, though, is that the folks at our local department of 
transportation--you know, we are really working with some older 
ideas, belief that a two-lane road had to be 12 feet, each lane 
had to be 12 feet wide; that in order to accommodate fire 
trucks and emergency vehicles, they were dealing with using 
materials that actually were not contributing at all to 
mitigating damage from runoff.
    So multiple layers of problems actually internal to the 
agencies, and I think not because they are not good people and 
not because they are not smart and great engineers, but because 
there was a lack of knowledge about how they could do things 
differently, both in the planning process and in its 
implementation and in the contracting and purchasing. What 
designer will you hire? Do you bring on somebody who really 
understands walkable and livable communities, and who is 
committed to that; who understands not just the language of 
smart growth, but the implementation of smart growth?
    So I am really delighted to be here to hear your testimony 
today and I will begin by asking Mr. Shapiro and other Members 
of the panel who would care to comment, do you think that there 
are ways that the Federal and State governments can encourage 
local ordinance and zoning changes that will allow for better 
incorporation of green infrastructure technologies and 
approaches? We have heard that some municipalities have rules 
on the books that require local roads, as I said, to be wide, 
and those things interpret AASHTO requirements in a way that 
doesn't actually contribute to a more green and a more 
environmentally friendly design. So I wonder what the role of 
our Federal agencies, and particularly EPA, is in trying to 
come up with some recommendations and guidelines for the 
process that will really enable local planning authorities to 
move in the right direction.
    Mr. Shapiro. Thank you. Well, I think there are several 
things we can be doing, some of which we are doing now, but we 
could be doing more of. Partially recognizing these are largely 
local and county decisions; providing the tools and information 
and education about green infrastructure techniques to 
officials and to engineers and others who are writing the city 
codes, passing the ordinances; demonstrating that we have an 
alternative that will work better for the community that can be 
put in place without hampering any of the other values that led 
to the designs.
    People have certain street designs, as was mentioned, 
because they believe it is necessary for fire protection. I 
think there is enough experience now that has been developed 
that shows you can still maintain the original goals, the 
protection, public safety goals, but at the same time develop 
in a smarter, more efficient way. As a number of panelists have 
said, it saves money; it is better for the environment; it 
provides a much more pleasing urban landscape. And as community 
leaders learn this and as the tools and techniques become more 
accessible to the local officials and their engineers, I think 
we will continue to see movement in the direction of green 
infrastructure.
    I think, as has also been mentioned, there are probably 
things we can do with our Federal permitting programs that at 
least remove any impediments that we are inadvertently 
creating, and we will be looking at that as well.
    Ms. Edwards. Mr. Stoner or Mr. Shapiro? Ms. Stoner. I 
apologize.
    Ms. Stoner. No problem. Well, I would like to pick up on 
the idea that Mr. Shapiro suggested at the end, which is one of 
the ways to remove those local impediments to green 
infrastructure is to have that be part of the municipal 
permitting process, and it actually works that way in Maryland, 
as you may know. There is a State law that requires local 
ordinances that conflict with the low impact development law 
there be removed. And I think that if we were to follow up on 
Dr. Traver's suggestions and directly address the issues of 
hydrology and flow, and also Ms. Wahl's suggestion that we 
directly address hydrology and flow, which is essential to 
actually achieving our water resource goals, then we could 
couple that with requirements everywhere to remove the 
impediments that would interfere with that goal, and I think 
that would be a great way to move.
    Ms. Edwards. Mr. Neukrug?
    Mr. Neukrug. Thank you, Madam Chair. I was listening to the 
responses from Mr. Shapiro and Ms. Stoner. I go back to what 
Ms. Stoner had called the centerpiece of the Clean Water Act, 
green infrastructure, and recognizing how important it is to 
make that connection between water and land. And you can start 
with the utilities, but once you start with the utilities on 
this, it quickly evolves to counties and townships and many, 
many others; street departments. Everyone starts to get 
involved. So it is a good way to get things started.
    And even on the Safe Drinking Water Act there is source 
water protection, which again is an issue about watersheds, 
land-based practices versus water practices; and anything that 
can be done in the Clean Water Act, Safe Drinking Water Act to 
bring those two issues together will help this cause.
    In addition to that, requiring stormwater management and 
stormwater phase two regulations. But something that is really 
needed in this Country is to have mandatory stormwater 
ordinances for every township in the Country of the United 
States, and to have those reflect and have some sense of 
improvements if you have green infrastructure as part of your 
results. Watershed base permitting is something that the State 
of Pennsylvania and EPA has been working towards but have not 
really gotten successful implementation of yet, and that should 
move forward.
    I would just like to point out in Southeastern 
Pennsylvania, EPA, the State and the Delaware River Basin 
Commission and the Philadelphia Water Department are working 
together on something called the Schuylkill Action Network, 
which brings together hundreds of partners to deal with 
drinking water source protection and other issues.
    So there are a whole bunch of different ways to bring 
regional partnerships together on the water side, the 
wastewater side, and the land-based side.
    Ms. Edwards. Ms. Wahl?
    Ms. Wahl. Madam Chairwoman, back to your question about 
streets and how to get these things done on streets, the 
question in my mind isn't so much what can the Federal 
Government do immediately, but with green infrastructure, the 
way to get them done is to look at the other urban need and 
then meet the watershed purpose in that action. So, for 
instance, this one, the one on the bottom, the curb extension, 
some people see that as a stormwater facility. Most people in 
that area see it as traffic calming, because in that 
neighborhood there has been a speeding problem. So those curb 
extensions are not always seen as stormwater.
    In other areas they are safe routes to school because if 
you put the curb extensions in to get the intersection smaller 
and you also make it into a curb extension for stormwater 
management, then it doesn't have to cost more, and you are 
getting the things done at the same time.
    So I would go back to my request to the Federal Government 
in these kinds of facilities is to make sure that when you are 
constructing these for stormwater purposes, they get recognized 
for that and you get compliance for that, because these are 
contributing to the watershed needs; they are just getting done 
under the auspices of all kinds of urban needs at the same 
time.
    Ms. Edwards. Thank you very much. I appreciate your 
mentioning that, and I am reminded that it was many pictures of 
Portland streets that we presented before our local county 
council that helped us move forward in our decision-making, so 
thank you very much.
    I have a question for Mr. Shapiro. Some of the green 
infrastructure technologies are really promising, but they are 
new; they really haven't been tested yet in a lot of regions 
around the Country. At the same time, you have a commitment to 
protect water quality. So I wonder if you can describe the 
process or framework by which the agency balances the need to 
protect water quality, while also encouraging the adoption of 
some of the new approaches and in ways that may be 
environmentally and cost-effective. And, again, wondering your 
thoughts about the EPA's work with communities to put some of 
these new technologies into place while also ensuring that 
water quality protections will be achieved.
    Mr. Shapiro. Thank you. Of course, maintaining or restoring 
water quality obviously is our primary mission under the Clean 
Water Act, and I think the way we go about doing this is really 
by building a body of experience that allows us to understand 
how these technologies work and develop models or rules that 
help us establish expected performance. It is more difficult, 
historically, with green infrastructure because the decisions 
that have to be made are very site-specific and involve the 
soils and suitable greenery and hydrology of a particular area.
    But EPA and other partners have supported research and 
monitoring that is accumulating that body of evidence, and then 
we, as an agency that oversees the national permitting 
program--most of the permits are issued by States, but as we 
look at those programs, build that experience into the toolkits 
of permit writers so that they know that, as they review permit 
applications, the technologies are demonstrated and they work.
    In some cases, we are pretty far along in developing that 
knowledge base, and we have a number of tools on our website. 
We have a series of best practices; we have some design tools 
that are accessible. In other cases--and I think one was 
mentioned this morning in Kansas City--we are continuing to 
support municipal activities and partnering with them in terms 
of putting a research component in so that we can gather the 
data and continue to build our experience base.
    Another point I think that was made earlier is that we very 
much support adaptive approaches, meaning if we think something 
will work, we should be willing to go ahead and allow it to be 
used under the permit, but make sure that as we review 
progress, as monitoring data become available, as permits come 
up for renewal, which they do on a five-year basis, if we find 
out it isn't working, we can make changes based on our 
understanding of what can work.
    So it is a learning process as we introduce the new 
technology, but we first have to establish a groundwork, which 
I think now exists, demonstrating that the technology can work, 
and then gain experience in applying it in specific locations.
    Ms. Edwards. Do other panelists--Dr. Traver?
    Mr. Traver. Yes, just for a moment here. I have heard a lot 
today about how sometimes it works, sometimes it doesn't work 
in different areas. One of the strengths of green 
infrastructure is you can really focus it on the problems that 
you are trying to address. An example I use in my classes a lot 
of times, in Austin, apparently they have all their rains in 
big heavy clumps a few times a year. A green roof isn't going 
to help you very much. Maryland, Pennsylvania, this area, it is 
very helpful because most of our rain is in small, little 
amounts. And it doesn't matter what the soil condition is 
underneath a green roof; it is evaporative type plants.
    I know a lot of work has been done all over the Country on 
bioretention, including your area in Maryland, where they do 
not infiltrate and they use evaporative type procedures.
    So, you know, I kind of, I guess, get a little upset when I 
hear that this one-size-fits-all doesn't really work. It is an 
engineering process and you need to take a look at what are 
your goals for your watershed, what are you trying to do, and 
which ones will work in your area.
    Ms. Edwards. This sort of goes along the same line, but Mr. 
Neukrug and maybe Ms. Stoner, do you have an idea when and 
whether communities have been blocked from incorporating green 
infrastructure approaches and technologies in their long-term 
control plans? Is this a problem?
    Mr. Neukrug. That is a very good question, and I think 
blocked is the wrong word. I think there is an issue of risk 
aversion, and the risk aversion is happening both from the 
perspective of the environmental agencies and the utilities. It 
is how do you put into place this adaptive management that Mr. 
Shapiro talked about and do it in a way that allows everyone to 
innovate and try new things and move this process forward so 
that we can evolve our cities into a sustainable future. And 
that is going to take time and it is going to take trust.
    We can't take our eyes off the ball, which is, as Mr. 
Shapiro also said, we have got to stop having sewage go into 
our rivers; and that is clearly what the Clean Water Act is 
about. But, at the same time, there are newer ways of doing 
these things, and at some point we all have to get together 
and, either through legislation or regulation or policy or just 
plain old trust, agree that this is something we should be 
trying.
    Ms. Edwards. Ms. Stoner, I believe that was in your 
testimony.
    Ms. Stoner. Yes, it was. I appreciate your asking about it. 
I agree with Mr. Neukrug. Again, it is not so much that it has 
been blocked as that there have been pieces missing; and 
sometimes it is the comfort of the engineers with it, sometimes 
it is the comfort of the regulators and so forth. I think a big 
piece is this piece about actually implementing intensively and 
monitoring; and that is what we really need to get over the 
hurdle of the uncertainties that sometimes prevent this from 
moving forward.
    But I also want to mention, with respect to the issue that 
Dr. Traver was talking about, another benefit of green 
infrastructure is its flexibility. You know, one of the things 
that is true, I believe, about climate change and the impacts 
on water is that we will see different rain patterns in the 
future than we have seen in the past. Most people predict more 
extreme storm events. But it varies somewhat in different parts 
of the Country and, again, the models aren't perfect, so the 
information isn't perfect. But we do know that things will be 
different in the future than they are now.
    A green infrastructure kind of approach is one that is very 
flexible. You can add in more trees, more rain gardens, more 
green roofs, more street edge alternatives as the need arises; 
whereas, pipes don't grow. You put in a pipe, a big underground 
pipe like the one shown up here, and that is what you are going 
to have, whether that is what you need in the future or not. So 
I think sometimes uncertainty helps us in terms of the 
flexibility to look at solutions that are adaptive over time.
    Ms. Edwards. Thank you.
    One question for Mr. Richards. You seem to suggest in your 
testimony that there was some inconsistency between the idea of 
low impact development and smart growth. Did I mishear you or 
misread you?
    Mr. Richards. You heard me correctly in that sometimes, if 
you are using the idea or focusing in the idea that less 
impervious is what you have got to do, then sometimes that can 
encourage the development to sprawl a little bit, rather than 
to tighten up and look more like what I would consider to be 
smart growth as associated with maybe transit-oriented 
developments or developments that are higher in density and 
more urban. If you are pushing people to focus on less 
impervious, that is hard to do in those areas.
    So my point was there should be options associated with 
that. If you can use things like green roofs or if you can use 
permeable pavements and things like that in those situations, 
those are great, and we should be doing that. If those options 
aren't available for some reason or another, there should just 
be other options.
    Ms. Edwards. Do other panelists have a comment on this? Ms. 
Wahl?
    Ms. Wahl. Madam Chair, I think there are times when people 
want density and want green, and think that they can't work 
together, but that has not been our experience so far. They are 
harder to do in already developed areas and most of the urban 
areas are built out, but they can be done in those areas as 
well, especially at redevelopment time. Our approach was to put 
a stormwater management manual in place that required, whenever 
you develop 500 square feet or more, you have to try to manage 
the stormwater onsite, on the surface, in vegetated facilities; 
and it unleashed thousands of these across the city, so people 
are learning how to do it.
    Again, it is just important that--I would echo what Dr. 
Traver said, that different ones work in different places for 
different conditions, and it is not that we are all looking, if 
you will, for guidance from EPA on that as compiling what all 
of the cities and entities around the Country are doing, 
compile that, prove it up or disprove it, and put that 
information back out, because I think that is where all of the 
innovation is happening.
    Ms. Edwards. Thank you.
    Mr. Shapiro, just on this, is the EPA proactively 
presenting options to permit applicants regarding the proper 
mix of green and gray infrastructure for given areas? And, if 
not, do you intend to?
    Mr. Shapiro. Well, again, in most cases EPA isn't the 
direct permit writer; in some States we are. I think 46 States 
manage the permitting program themselves, so we are working 
with the State programs to help them improve their permitting. 
So, typically, we are not engaged directly with the community 
in writing the permits. There are some cases where, as in the 
case of Kansas City, Portland, I believe, as well as 
Cincinnati, we have been working with the communities directly 
in helping them introduce green infrastructure approaches; but 
we are more involved and engaged in trying to get the tools and 
the information out so that the bulk of the permitting work and 
the local permitting work that is done is able to go forward 
incorporating green infrastructure approaches. Again, where we 
get involved is usually a pilot type of activity or one where 
we are engaged in sort of a research collaboration in addition 
to developing a specific permit.
    Ms. Edwards. Mr. Shapiro, has the agency considered being 
more proactively involved in providing guidance even in those 
instances where you are not sort of the first up for the 
purposes of permitting?
    Mr. Shapiro. Yes, we have, and I think in my testimony I 
mentioned that in a couple of cases we have already sent out 
national memos where we have directed our regional staff to 
consider very strongly green infrastructure approaches. We made 
it very clear that, as far as we are concerned--and this 
includes not just the Office of Water, but the Water Office of 
Enforcement as well--green infrastructure approaches are 
perfectly appropriate for incorporation into NPDES permits, and 
we have other documents that encourage their use.
    So we have taken that approach. We can certainly do more, 
and should be doing more, but we created a green infrastructure 
initiative specifically to promote the idea and to work with 
partner to motivate a much greater use of the approach.
    Ms. Edwards. And do you have any results that this 
Subcommittee could take a look at?
    Mr. Shapiro. In terms of increase in the actual application 
of green infrastructures or greater numbers of permits that 
reflect green infrastructure approaches, I don't think we have 
results that we can demonstrate today. There are case studies, 
as I said, which we have identified. There are products that 
our program has produced. Again, I mentioned some of those. But 
in terms of actual numbers of permits and amount of stormwater 
control through green approaches, we don't have results that I 
can report to you right now.
    Ms. Edwards. And is this an appropriate area--and perhaps 
any of you could comment on this--where you would need more 
guidance, more authority from the Congress to be more 
affirmative and deliberate in working with State authorities?
    Mr. Shapiro. Not necessarily, although there are some 
issues that go beyond some of the work we have done to date 
that have been raised, for example, by the National Research 
Council study and recommendations, where we are looking very 
closely at our existing authorities, for example, on the issue 
of managing the hydrology as opposed to the quality aspects of 
runoff that we are still looking at. But at this point I can't 
point to a specific authority that we are lacking that would 
prevent us from moving forward.
    Ms. Edwards. Ms. Stoner?
    Ms. Stoner. Yes, thanks, Madam Chair. I would say that the 
agency has quite a bit of authority that it has not yet used. 
One example I would give is setting technology-based standards 
based on maintaining predevelopment hydrology, which is the 
basis principle here for green infrastructure, for the 
construction and development industry, which is something that 
NRDC has been promoting for a while. That is the most effective 
time to put in green infrastructure, as several of the 
panelists have mentioned. So that should be the first step, is 
to make sure we start building things right the first time. The 
retrofitting sometimes is more difficult and more expensive. So 
I think that is one step.
    One thing that the Congress will be looking at later this 
year that would be a good time to think about green 
infrastructure is the surface transportation bill. Of course, 
roads are huge source of stormwater pollution, which is one of 
the reasons why I actually think that this work is very 
compatible with smart growth. We definitely want to see compact 
cities to protect water resources, and I view myself as a smart 
growth advocate as well as a green infrastructure advocate in 
working to revive cities. But in that surface transportation 
bill, it would be great if the Congress could look at ensuring 
that there are funds and that there are standards to prevent 
stormwater pollution from those federally-funded roads.
    Ms. Edwards. Thank you for that recommendation. As you 
probably know, there are some of us who share that view.
    We don't have any further questions, so I would like to 
thank the panel, thank our witnesses. We really appreciate your 
testimony today and look forward to continuing to hear from you 
and to work with you. Thank you.
    [Whereupon, at 1:19 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8237.010
    
    [GRAPHIC] [TIFF OMITTED] T8237.011
    
    [GRAPHIC] [TIFF OMITTED] T8237.012
    
    [GRAPHIC] [TIFF OMITTED] T8237.013
    
    [GRAPHIC] [TIFF OMITTED] T8237.014
    
    [GRAPHIC] [TIFF OMITTED] T8237.015
    
    [GRAPHIC] [TIFF OMITTED] T8237.016
    
    [GRAPHIC] [TIFF OMITTED] T8237.017
    
    [GRAPHIC] [TIFF OMITTED] T8237.018
    
    [GRAPHIC] [TIFF OMITTED] T8237.019
    
    [GRAPHIC] [TIFF OMITTED] T8237.020
    
    [GRAPHIC] [TIFF OMITTED] T8237.021
    
    [GRAPHIC] [TIFF OMITTED] T8237.022
    
    [GRAPHIC] [TIFF OMITTED] T8237.023
    
    [GRAPHIC] [TIFF OMITTED] T8237.024
    
    [GRAPHIC] [TIFF OMITTED] T8237.025
    
    [GRAPHIC] [TIFF OMITTED] T8237.026
    
    [GRAPHIC] [TIFF OMITTED] T8237.027
    
    [GRAPHIC] [TIFF OMITTED] T8237.028
    
    [GRAPHIC] [TIFF OMITTED] T8237.029
    
    [GRAPHIC] [TIFF OMITTED] T8237.030
    
    [GRAPHIC] [TIFF OMITTED] T8237.031
    
    [GRAPHIC] [TIFF OMITTED] T8237.032
    
    [GRAPHIC] [TIFF OMITTED] T8237.033
    
    [GRAPHIC] [TIFF OMITTED] T8237.034
    
    [GRAPHIC] [TIFF OMITTED] T8237.035
    
    [GRAPHIC] [TIFF OMITTED] T8237.036
    
    [GRAPHIC] [TIFF OMITTED] T8237.037
    
    [GRAPHIC] [TIFF OMITTED] T8237.038
    
    [GRAPHIC] [TIFF OMITTED] T8237.039
    
    [GRAPHIC] [TIFF OMITTED] T8237.040
    
    [GRAPHIC] [TIFF OMITTED] T8237.041
    
    [GRAPHIC] [TIFF OMITTED] T8237.042
    
    [GRAPHIC] [TIFF OMITTED] T8237.043
    
    [GRAPHIC] [TIFF OMITTED] T8237.044
    
    [GRAPHIC] [TIFF OMITTED] T8237.045
    
    [GRAPHIC] [TIFF OMITTED] T8237.046
    
    [GRAPHIC] [TIFF OMITTED] T8237.047
    
    [GRAPHIC] [TIFF OMITTED] T8237.048
    
    [GRAPHIC] [TIFF OMITTED] T8237.049
    
    [GRAPHIC] [TIFF OMITTED] T8237.050
    
    [GRAPHIC] [TIFF OMITTED] T8237.051
    
    [GRAPHIC] [TIFF OMITTED] T8237.052
    
    [GRAPHIC] [TIFF OMITTED] T8237.053
    
    [GRAPHIC] [TIFF OMITTED] T8237.054
    
    [GRAPHIC] [TIFF OMITTED] T8237.055
    
    [GRAPHIC] [TIFF OMITTED] T8237.056
    
    [GRAPHIC] [TIFF OMITTED] T8237.057
    
    [GRAPHIC] [TIFF OMITTED] T8237.058
    
    [GRAPHIC] [TIFF OMITTED] T8237.059
    
    [GRAPHIC] [TIFF OMITTED] T8237.060
    
    [GRAPHIC] [TIFF OMITTED] T8237.061
    
    [GRAPHIC] [TIFF OMITTED] T8237.062
    
    [GRAPHIC] [TIFF OMITTED] T8237.063
    
    [GRAPHIC] [TIFF OMITTED] T8237.064
    
    [GRAPHIC] [TIFF OMITTED] T8237.065
    
    [GRAPHIC] [TIFF OMITTED] T8237.066
    
    [GRAPHIC] [TIFF OMITTED] T8237.067
    
    [GRAPHIC] [TIFF OMITTED] T8237.068
    
    [GRAPHIC] [TIFF OMITTED] T8237.069
    
    [GRAPHIC] [TIFF OMITTED] T8237.070
    
    [GRAPHIC] [TIFF OMITTED] T8237.071
    
    [GRAPHIC] [TIFF OMITTED] T8237.072
    
    [GRAPHIC] [TIFF OMITTED] T8237.073
    
    [GRAPHIC] [TIFF OMITTED] T8237.074
    
    [GRAPHIC] [TIFF OMITTED] T8237.075
    
    [GRAPHIC] [TIFF OMITTED] T8237.076
    
    [GRAPHIC] [TIFF OMITTED] T8237.077
    
    [GRAPHIC] [TIFF OMITTED] T8237.078
    
    [GRAPHIC] [TIFF OMITTED] T8237.079
    
    [GRAPHIC] [TIFF OMITTED] T8237.080
    
    [GRAPHIC] [TIFF OMITTED] T8237.081
    
    [GRAPHIC] [TIFF OMITTED] T8237.082
    
    [GRAPHIC] [TIFF OMITTED] T8237.083
    
    [GRAPHIC] [TIFF OMITTED] T8237.084
    
    [GRAPHIC] [TIFF OMITTED] T8237.085
    
    [GRAPHIC] [TIFF OMITTED] T8237.086
    
    [GRAPHIC] [TIFF OMITTED] T8237.087
    
    [GRAPHIC] [TIFF OMITTED] T8237.088
    
    [GRAPHIC] [TIFF OMITTED] T8237.089
    
    [GRAPHIC] [TIFF OMITTED] T8237.090
    
    [GRAPHIC] [TIFF OMITTED] T8237.091
    
    [GRAPHIC] [TIFF OMITTED] T8237.092
    
    [GRAPHIC] [TIFF OMITTED] T8237.093
    
    [GRAPHIC] [TIFF OMITTED] T8237.094
    
    [GRAPHIC] [TIFF OMITTED] T8237.095
    
    [GRAPHIC] [TIFF OMITTED] T8237.096
    
    [GRAPHIC] [TIFF OMITTED] T8237.097
    
    [GRAPHIC] [TIFF OMITTED] T8237.098
    
    [GRAPHIC] [TIFF OMITTED] T8237.099
    
    [GRAPHIC] [TIFF OMITTED] T8237.100
    
    [GRAPHIC] [TIFF OMITTED] T8237.101
    
    [GRAPHIC] [TIFF OMITTED] T8237.102
    
    [GRAPHIC] [TIFF OMITTED] T8237.103
    
    [GRAPHIC] [TIFF OMITTED] T8237.104
    
    [GRAPHIC] [TIFF OMITTED] T8237.105
    
    [GRAPHIC] [TIFF OMITTED] T8237.106
    
    [GRAPHIC] [TIFF OMITTED] T8237.107
    
    [GRAPHIC] [TIFF OMITTED] T8237.108
    
    [GRAPHIC] [TIFF OMITTED] T8237.109
    
    [GRAPHIC] [TIFF OMITTED] T8237.110
    
    [GRAPHIC] [TIFF OMITTED] T8237.111
    
    [GRAPHIC] [TIFF OMITTED] T8237.112
    
    [GRAPHIC] [TIFF OMITTED] T8237.113
    
    [GRAPHIC] [TIFF OMITTED] T8237.114
    
    [GRAPHIC] [TIFF OMITTED] T8237.115
    
    [GRAPHIC] [TIFF OMITTED] T8237.116
    
    [GRAPHIC] [TIFF OMITTED] T8237.117
    
    [GRAPHIC] [TIFF OMITTED] T8237.118
    
    [GRAPHIC] [TIFF OMITTED] T8237.119
    
    [GRAPHIC] [TIFF OMITTED] T8237.120
    
    [GRAPHIC] [TIFF OMITTED] T8237.121
    
    [GRAPHIC] [TIFF OMITTED] T8237.122
    
    [GRAPHIC] [TIFF OMITTED] T8237.123
    
    [GRAPHIC] [TIFF OMITTED] T8237.124
    
    [GRAPHIC] [TIFF OMITTED] T8237.125
    
    [GRAPHIC] [TIFF OMITTED] T8237.126
    
    [GRAPHIC] [TIFF OMITTED] T8237.127
    
    [GRAPHIC] [TIFF OMITTED] T8237.128
    
    [GRAPHIC] [TIFF OMITTED] T8237.129
    
    [GRAPHIC] [TIFF OMITTED] T8237.130
    
    [GRAPHIC] [TIFF OMITTED] T8237.131
    
    [GRAPHIC] [TIFF OMITTED] T8237.132
    
    [GRAPHIC] [TIFF OMITTED] T8237.133
    
    [GRAPHIC] [TIFF OMITTED] T8237.134
    
    [GRAPHIC] [TIFF OMITTED] T8237.135
    
    [GRAPHIC] [TIFF OMITTED] T8237.136
    
    [GRAPHIC] [TIFF OMITTED] T8237.137
    
    [GRAPHIC] [TIFF OMITTED] T8237.138
    
    [GRAPHIC] [TIFF OMITTED] T8237.139
    
    [GRAPHIC] [TIFF OMITTED] T8237.140
    
    [GRAPHIC] [TIFF OMITTED] T8237.141
    
    [GRAPHIC] [TIFF OMITTED] T8237.142
    
    [GRAPHIC] [TIFF OMITTED] T8237.143
    
    [GRAPHIC] [TIFF OMITTED] T8237.144
    
    [GRAPHIC] [TIFF OMITTED] T8237.145
    
    [GRAPHIC] [TIFF OMITTED] T8237.146
    
    [GRAPHIC] [TIFF OMITTED] T8237.147
    
                                    

</pre></body></html>
